Semiannual Report
to the Congress
U.S. Department of Labor
April 1 - September 30, 1993



             OFFICE            OF   INSPECTOR   GENERAL
                           Department of Labor
                           Office of Inspector General Hotline

                           202-219-5227 or 1-800-347-3756

                           The OIG Hotline is open to the, public and to Federal
                           employees 24 hours a day, 7 days a week to receive
                           allegations of fraud, waste, and abuse. An operator
                           is on duty during normal business hours. For your
                           convenience, an answering machine is available all
                           other times.

                           Written   complaints    may sent to:

                           OIG Hotline
                           U. S. Department of Labor
                           Office of Inspector General
                           Room S-5512
                           200 Constitution Avenue, NW
                           Washington, DC. 20210




The OIG appreciates      the assistance   of the U.S. Department   of Labor's   Historian   in making available
to us the archived pkotograpks       of American   working   men and women that appear      on our coven




                      Federal RecyclingProgram _I_-_           Printedon Recycled Paper
         OFFICE            OF     INSPECTOR               GENERAL




                           Semiannual Reportto the Congress
                              April 1 - September 30, 1993




UNITED            STATES           DEPARTMENT                 OF    LABOR
SemiannualReport to the Congress                                                 April 1- September 30, 1993




THE INSPECTOR GENERAL'S STATEMENT

This Semiannual Report, covering the period from April 1 - September 30, 1993, is the second
 report issued for fiscal year 1993. It highlights many of the significant accomplishments of the
men and women of the U. S. Department of Labor's Office of Inspector General (OIG). During
this reporting period, we actively participated in the National Performance Review, the Depart-
ment of Labor (DOL) Reinvention efforts, and began our own internal reinvention initiative. The
DOL OIG has been a leader in maintaining a focus on evaluation of management control sys-
tems in addition to the more traditional compliance audits. We have long recognized the impor-
tance of preventing fraud, waste, and abuse through systemic improvernents and program per-
formance evaluation. We have, therefore, dedicated significant resources to these ends. Some
fruits of these efforts are included throughout this report.

During fiscal year 1993, the OIG issued 420 audits of departmental programs, reporting ques-
tioned costs of $29.8 million. An additional $250 thousand was recommended to be put to better
use and $27.8 million in costs were disallowed by the DOL, based upon OIG audit recommenda-
tions. In law enforcement, the OIG obtained 449 indictments, 302 convictions, and generated
$63.8 million in fines, penalties, restitutions, recoveries, settlements, forfeitures, and cost effi-
ciencies. Among the OIG's many noteworthy accomplishments during this reporting period are:

•        The Office of Audit's reports on the Trade Adjustment Assistance (TAA) program and the
         Targeted Job Tax Credit (TJTC) program. The TAA performance audit assessed the
         adequacy of management control programs and determined program outcomes. It con-
         cluded that, after 19 years, the program's administrators did not know whether the pro-
         gram was effective. The TJTC audit recommended that the Secretary of Labor advocate
         congressional reconsideration of the program to either discontinue or redirect it.

•       The Office of Labor Racketeering's efforts to eliminate fraudulent health insurance scams,
        particularly Multiple Employee Welfare Arrangements, MEWAs, and to rid unions and
        employers of labor racketeering.

•       The Office of Investigations' initiatives to control abuse in the Federal Employees' Com-
        pensation Act program and to see that Federal funds are safeguarded and recovered for
        other programs.

As always, my staff and I remain committed to assisting the DOL's management to ensure that
the Department's programs are effectively, efficiently and economically implemented and admin-
istered..___




Charles C. Masten
Deputy Inspector General
 Semiannual
         ReporttotheCongress                                                      April1- September
                                                                                                  30,1993



 SIGNIFICANT CONCERNS
 OF THE iNSPECTOR GENERAL

.....                             Audit findings in a recently issued OIG report suggest that the
Government Loses                  Targeted Jobs Tax Credit (TJTC) program has primarily served
Billions in Revenue               as a tax windfall for participating employers. Employers, inter-
From Unnecessary                  viewed during the course of an OIG audit in Alabama, acknowl-
Tax Credits                       edged that they would Ihave hired 95 percent of the same indi-
                                  viduals for whom they claimed tax credits. In fact, their hiring
.....
 _,_o,                            decision was typically made before TJTC eligibility was deter-
                                  mined, apparently denying the need for the tax incentive.

                                  When the TJTC F'rogram was created in 1974, Congress intended
                                  to offer a tax incentive to employers to stimulate the employment
                                  of targeted individuals who, without the subsidy, may not other-
                                  wise be hired. Revenue losses from TJTC tax credits totaled
95%would havebeenhired,           $4.5 billion from 11980to 1990. Because of the importance of this
evenwithout the tax credit        program, the OIG has initiated a nationwide audit.

                                  The OIG questions the value of continuing a program that our
                                  audit findings suggest may not be necessary. Consistent with the
                                  Administration's commitment to eliminate Government programs
                                  that do not work, we urge the DOL and the Congress to evaluate
                                  whether the TJTC program is meeting its objectives and deter-
                                  mine whether it should be discontinued or, at a minimum, sharply
                                  redirected to target those most in need of hiring assistance.

'_                                A recent nationwide OIG audit report disclosed that the Trade
                                  Adjustment Assistance (TAA) Program continues to be run as a
TAA Program Needs                 compensation program, rather than as a training program. TAA
to be Overhauled
                                  was initially designed by Congress to assist individuals who lost
F: ..........
                                  their jobs as a result of increased imports to return to "suitable
                                  employment." The Act was amended to clarify and to emphasize
                                  the importance of training as the means to achieve this objective.
                                  However, OIG audit data show that only 5 in 10 TAA participants
                                  enrolled in training and only 1 of the 10 found suitable employ-
Only 1 in ]Ofoundsuitable         ment related to the training received. (Suitable employment is
employment      relatedto   the   interpreted by the OIG as a job that pays at least 80 percent of the
training                          former weekly average wage.) The OIG also found that 71 per-
                                  cent of the participants in the sample were granted training waiv-
                                  ers despite the fact such waivers were intended by Congress to
                                  be used sparingly. Our audit concluded that, after 19 years, the




                                                   ii
SemiannualReportto the Congress                                                   April1- September30, 1993




                                  Employment and Training Administration (ETA) does not know
                                  whether the TAA program is effective. ETA does not require states
                                  to collect data on TAA participant outcomes, as it does for other
                                  programs. The Secretary of Labor and the Assistant Secretary
                                  for ETA have testified that TAA is currently being considered by
                                  the Administration as an option to retrain workers dislocated by
                                  the passage of the North American Free Trade Agreement. The
                                  OIG recommends that the DOL establish performance measures,
                                  participant followup procedures, and waiver controls to ensure
                                  that the program meets the objective and functions that the Con-
                                  gress intended.



                                  For several years, through our semiannual reports and congres-
OSHA Criminal                     sional testimony, the OIG has advocated legislation that estab-
Penalties Needed                  lishes felony criminal penalties for willful or repeat violations of
                                  Occupational Safety and Health Administration (OSHA) rules that
                                  result in a worker's death or serious bodily injury. This OIG rec-
                                  ommendation was recently endorsed by the Department of Jus-
                                  tice in congressional testimony. The OIG believes that only through
                                  the establishment of criminal penalties will the Occupational Safety
                                  and Health Act serve as a meaningful deterrent to this type of
                                  willful employer behavior. Unfortunately, civil penalties for these
Civilpenaltiessimply  become      violations simply become yet another cost of doing business --
yet anothercost of doing          costs which are significantly reduced as cases travel through the
business                          appellate process. In fact, an OIG audit disclosed that, in OSHA
                                  egregious cases concluded by settlement, penalties were reduced
                                  by 72 percent; while in litigated OSHA egregious cases, penalties
                                  were reduced by 96 percent. The OIG continues to encourage a
                                  legislative remedy in this area.


                                  Since 1984, the OIG has reported its concerns that hundreds of
                                  billions of dollars in employee pension funds are not being ad-
Inadequate Audits Leave
                                  equately audited to ensure that they are safeguarded and will be
Pension Plan Funds                available in the future to pay promised benefits. In 1989, the OIG
Vulnerable                        issued an audit report recommending the repeal of the limited
                                  scope audit provision of the Employee Retirement Income Secu-
                                  rityAct (ERISA) of 1974. This provision contributes to the danger
                                  of inadequate auditing of pension plan assets because it exempts
                                  from review by an auditor all pension plan funds that have been
                                  invested in entities already regulated by Federal or State Gov-
                                  ernments such as savings and loans, banks, or insurance corn-




                                                   iii
Semiannual Report to the Congress                                                   April 1 - September 30, 1993




                                    panies. At the time ERISA was passed almost two decades ago,
                                    it was assumed that all of the funds invested in those regulated
                                    industries were being adequately reviewed. Unfortunately, as the
                                    taxpayers have since discovered, this is far from true.

                                    The repeal of the limited scope audit provision will be a major
                                    step towards involving public accountants in the kind of active
Progress    slow   in DOL   's
                                    role that ERISA originally implied they should take -- that of play-
 legislative remedy                 ing an integral role, along with the Secretary of Labor, in provid-
                                    ing the first line of defense for pension plan participants by ap-
                                    prising them of potential problems with the operation of their pen-
                                    sion plans. Although the Department has produced a proposal to
                                    improve pension plan audits, very little progress has been made.


                                    In April 1992, the OIG provided the Congress with the results of a
FECA Fraud Convicts                 study that assessed the actions taken against 63 FECA claimants
Continue to Draw FECA               who were convicted of defrauding the FECA program during Fis-
Benefits in Prison                  cal Years 1990 and 1991. That OIG study revealed that over 50
                                    percent of those FECA claimants who had been convicted of de-
                                    frauding the FECA program continued to receive FECA benefits
                                    because the DOL does not have the statutory authority to termi-
                                    nate benefits solely on the basis of a criminalconviction. Although
                                    the actual number of incarcerated individualsreceiving FECA ben-
                                    efits is relatively small, the OIG believes that the Department and
DOL lacksstatutoryauthoriO_to       the FECA program may face serious criticism for providing ben-
terminate benefitssolely onthe      efits to individualsfrom the very program that they were convicted
basis of a criminal   conviction    of defrauding. In addition, individuals convicted of any felony
                                    offense should have their full FECA benefits suspended while they
                                    are in prison. Also, the; dependents of these claimants should
                                    only receive benefit amounts comparable to survivor benefits un-
NationalPerformanceReview           der the present social security system. The Vice President's Na-
adopts   OIGrecommendation          tional Performance Review has incorporated the OIG recommen-
                                    dation on incarcerated FECA beneficiaries into its recommenda-
                                    tions for savings to the Government. The OIG urges swift con-
                                    gressional action to address this problem.


                                    As part of its commitment to reduce the financial impact on the
OIG Spearheads                      Government resulting from FECA fraud, in addition to our investi-
Inter-Agency                        gations, the OIG is chairing a subcommittee of a joint agency task
FECA Fraud Effort                   force established to counter FECA fraud, waste, and abuse. It is
                                    comprised of senior managers from the Federal agencies respon-
                                    sible for investigating F[--CA fraud.
SemiannualReport to the Congress                                                                                                              April1 - September30, 1993



TABLE OF CONTENTS

THE INSPECTOR GENERAL'S STATEMENT ................................................................................................i

SIGNIFICANT CONCERNS OF THE INSPECTOR GENERAL ...................................................................ii

Government Loses Billions in Revenue From Unnecessary Tax Credits .............................................................. ii
TAA Program Needs to be Overhauled ..................................................................................................................ii
OSHA Criminal Penalties Needed ........................................................................................................................ iii
Inadequate Audits Leave Pension Plan Funds Vulnerable .................................................................................. iii
FECA Fraud Convicts Continue to Draw FECA Benefits in Prison.......................................................................iv
OIG Spearheads Inter-Agency FECA Fraud Effort ...............................................................................................iv

EXECUTIVE SUMMARY                         ...................................................................................................................       1

SELECTED STATISTICS
  April 1, 1993 - September 30, 1993 ..................................................................................................................3
  FY 1993 Total ....................................................................................................................................................4

OFFICE OF AUDIT ..............................................................................................................................................5

Office of the Secretary .........................................................................................................................................5
Officeof AdministrativeAppeals Audit...................................................................................................................5
Office of Administrative Law Judges Audit.............................................................................................................6
Benefits Review Board Organizationand ManagementReviews..........................................................................7

Employment and Training Administration ........................................................................................................7
State EmploymentSecurityAgencies....................................................................................................................8
   Trade AdjustmentAssistance Program.............................................................................................................8
   Targeted JobsTax Credit Program.................................................................................................................. 11
JTPA Title II Programs..........................................................................................................................................12
JTPA Title III Programs.........................................................................................................................................13
JTPA Title IV Programs........................................................................................................................................13
JTPA Audit Resolution........................................"..................................................................................................16
Older Worker Programs........................................................................................................................................17
Other ETA Audit Resolution....................................................................................................................._............ 17

Financial Management .......................................................................................................................................18
Statusof Critical Financial ManagementNeeds ..................................................................................................19
Fiscal Year 1992 FinancialAudits ........................................................................................................................19
FiscalYear 1992 Agency PerformanceMeasures ...............................................................................................24

Departmental Management................................................................................................................................26
InformationResources Management..................................._................................................................................26
Cost AllocationPlans and IndirectCost Rates .....................................................................................................27

Employment Standards Administration ..........................i.............................................................................. 28
PCIE/EmployingAgency Reviewof FECA Program ...........................................................................................28

Revised Management Decisions .......................................................................................................................28
Semiannual
        Report
            totheCongress                                                                                                                    April1-September
                                                                                                                                                           30,1993



OFFICE OF INVESTIGATIONS                            ........ ................................................................................................         29

Summary of Program Investigations ...............................................................................................................29
OIG Leads Inter-Agency Attack on FECA Fraud .............................................................................................29
Significant Investigative Accomplishments ....................................................................................................30
Federal Employees' Compensation Act (FECA) ............::....................................................................................32
Job Training Partnership Act (JTPA) ....................................................................................................................34
Unemployment Insurance (UI) ..............................................................................................................................35
Occupational Safety and Health Administration (OSHA) .....................................................................................36
Employee Integrity ................................................................................................................................................36
Complaint Analysis Office Activities.....................................................................................................................38
Appendix - Office of Investigations Financial Accomplishments .........................................................................39


OFFICE OF LABOR RACKETEERING                                    .........................................................................................................40

Investigative Priorities .......................................................................................................................................40
Health Insurance Fraud ......................................................................................................................................40
Significant Investigative Accomplishments ....................................................................................................42
Employee Benefit Plans .......................................................................................................................................42
Labor-Management Relations ..............................................................................................................................48
Internal Union Affairs ............................................................................................................................................52
Other Union Investigations ...................................................................................................................................53


EXECUTIVE DIRECTION AND MANAGEMENT                                              ...............................................................................        55

Office of Resource Management and Legislative Assessment ......................................................................55
Legislativeand RegulatoryAssessmentand Review.............................................."......i...................................... 55
IssuesRequiringCongressionalor DepartmentalAction..................................................i.................................. 55
Measures Under Considerationby the Congress.............................•..................................................................... 59
Special Projects Office ...........-:..............................................................................................._............................60
Reporting Requirements - The Inspector General Act of 1978 .....................................................................62


AUDIT SCHEDULES .................................................................................................................................:........63
Money Owed to the Department of Labor .............................................................................................................65
Summary of Audit Activity of DOL Programs .......................................................................................................66
Summary of Audit Activity of ETA Programs .......................................................................................................67
Summary of Audits Performed Under the Single Audit Act .................................................................................68
Summary of Audits Performed Under the Single Audit Act- Multi.-AgencyProgram Reports ............................69
Audits by Non-Federal Auditors, PCIE Semiannual Reporting - Summary Results of IG Reviews .................... 70
Summary of Audit Resolution Activity - Questioned Costs .................................................................................. 71
Summary of Audit Resolution Activity, Unsupported Questioned Cost ..............................................................72
Summary of Audit Resolution Activity - Funds Put to Better Use ..........................................................................73
Unresolved Audits Over 6 Months ........................................................................................................................74
Summary of Final Action Activity - Disallowed Costs ..........................................................................................76
Summary of Final Action Activity - Funds Put to Better Use ...............................................................................77
Significant Recommendations Resolved for Over 1 Year on whiclh
 Corrective/kction Has Not Been Completed (as of september 30, 1993).........................................................78
Final Audit Reports Issued ....................................................................................................................................83




                                                                                    I:i
SemiannualReporttothe Congress                                                                     April1 - September30, 1993




EXECUTIVE SUMMARY

Serious Delays in OAA            A performance audit of the Office of Administrative
Adjudicatory Function            Appeals (OAA) found that major deficiencies and de-
                                 lays in OAA's workload management and productivity
                                 may have adversely affected parties awaiting final de-
                                 cisions on ALJ decision appeals. The audit found that
                                 the 26 oldest cases had been at OAA for an average
                                 of 7.5 years .............................................................................. 5


TAA Program Falls Short          A nationwide OIG audit of the TAA program concluded
of Training Goals                thatthe TAA programismanaged as a compensation,
                                 rather than as a trainingprogram, and it fell short of
                                 meetingthe trainingand reemploymentgoals implied
                                 bytheCongress.The auditdisclosedthatafter19 years
                                 of operation,neitherETA northe states knowwhether
                                 the TAA programis effectivein assistingworkers,dis-
                                 placedfromtheirjobs as a resultof increasedimports,
                                 to returnto suitableemployment............................................... 8


Tax Credits Not Impetus          An OIG audit of the Targeted Jobs Tax Credit (TJTC)
for Employers to Hire            program disclosed that employers did not need the tax
Targeted Individuals             credits they claimed for targeted group employees that
                                 they hired since they would have hired 95 percent of
                                 them -- even without the tax subsidy. As a result, the
                                 OIG recommendedthat the Secretaryevaluate whether,
                                 after $4.5 billion in revenue losses for a 10-year pe-
                                 riod, the TJTC program should be discontinued or
                                 sharply redirected to target individuals most in need of
                                 hiring assistance ........._.............................................. :............ 11


Weaknesses Persist               Although there has been improvement in the
in DOL Financial                 Department'sfinancialoperations,seriousweaknesses
Management                       stillexistwithrespectto the implementationof the CFO
                                 organization,financialand performancereporting,and
                                 implementationofthe integratedfinancialmanagement
                                 system..................................................................................... 18
Semiannual Report to the Congress                                                                              April 1- September 30, 1993




Unemploymentlnsurance               Nineteen defendants from a continuing UI investiga-
Investigation                       tion near the United States and Mexican border in Texas
Results in 19 Sentences             were sentenced on charges of mail fraud and conspiracy
                                    to defraud the State of California by filing fraudulent,
                                    interstate UI claims .................................................................            30



Three indicted in                   Three individuals and three companies associated with
$11 Million                         one of New York City's largest painting contractors were
Employee Benefit Fraud              indicted on charges of defrauding the employee ben-
                                    efit funds of both the New York City and Long Island
                                    Painters' unions ......................................................................           42



Four Sentenced in                   Four defendants were sentenced for their involvement
Fraudulent Health                   in a fraudulent health benefit scheme that cheated more
Care Scheme                         than 40,000 Americans out of $34 million. The scheme
                                    left the victims with more than $50 million in unpaid
                                    claims .....................................................................................      44



NPR Recognizes            Need      The OIG has long been advocating an amendment to
for FECA Fraud                      the Federal Employees' Compensation Act (FECA) to
Amendments                          prohibit FECA benefits to those convicted for fraud
                                    against the FECA program as well as to suspend ben-
                                    efits to those convicted of a felony. The National Per-
                                    formance Review (NPR) recognizes the need for such
                                    an amendment .........................................................................            58



154 Months in Jail                  A former program analyst with the U.S. Department of
for FECA Fraud                      Treasury was sentenced to serve 154 months in jail
Scheme                              and fined $175,000. The sentence results from his con-
                                    viction in a FECA fraud scheme involving attempted
                                    murder-for-hire, obstruction of justice, and fraud ................... 33
     SemiannualReportto theCongress                                                                                  April1- September30, 1993




     SELECTED STATISTICS
     April 1, 1993 -September 30, 1993


     Office of Audit

     Reports issued on DOL activities......................................................................................... 218
     Total questionedcosts............................................................................................ $ 2,0 million
     Funds recommended for betteruse ....................................................................... $ 0,2 million
     Dollars resolved ..................................................................................................... $83.4 million
            Allowed ........................................................................................................ $18.9 million
            Disallowed ................................................................................................... $23.2 million
            Agreed funds be put to better use ............................................................... $41.2 million
            Disagreed funds be put to better use .......................................................... $ 0.1 million


     Office of Investigations

     Cases opened ....................................................................................................................... 173
     Cases closed ......................................................................................................................... 438
     Cases referredfor prosecution.............................................................................................. 209
     Cases referredto DOL for administrativeaction................................................................... 74
     Indictments ............................................................................................................................ 112
     Convictions............................................................................................................................ 81
     Recoveries, cost efficiencies, restitutions, fines/penalties,
       civil monetary actions, forfeitures, and court costs1 ............................................,$ 6.5 million


     Office of Labor Racketeering

     Cases opened ..................................................................................................................... 62
     Cases closed....................................................................................................................... 67
     Indictments.......................................................................................................................... 129
     Convictions........................................................................ .................................................. 58
     Fines .................................................................................................................... $ 0.7 million
     Restitutions............................................................................................................ $48.6 million




      1For definitions of these categories and a breakdown of the total figure, please see the Appendix to the Office of Investigations
'L     Section on page 39,
SemiannualReport to the Congress                                                                               April 1- September 30, 1993




SELECTED STATISTICS
FY 1993 Total


Office of Audit

Reports issued on DOL activities ........................................................................................... 420
Total questioned costs ..............................................................................................$ 29.8 million
Funds recommended for better use ........................................................................$ 0.25 million
Dollars resolved ..................................................................................................... $102.3 million
       Allowed ........................................................................................................ $ 32.6 million
       Disallowed ................................................................................................... $ 27.8 million
       Agreed funds be put to better use ............................................................... $ 41.8 million
       Disagreed funds be put to better use .......................................................... $ 0.1 million


Office of Investigations

Cases opened ....................................................................................................................... 3782
Cases closed ......................................................................................................................... 6722
Cases referred for prosecution ............................................................................................... 314
Cases referred to DOL for administrative action .................................................................... 155
Indictments ............................................................................................................................ 199
Convictions ............................................................................................................................ 1522
Recoveries, cost efficiencies, restitutions, fines/penalties,
  civil monetary actions, forfeitures, and court costs_ ........................................... $11.2 million


Office of Labor Racketeering

Cases opened ...................................................................................................................... 123
Cases closed ........................................................................................................................ 116
Indictments........................................................................................................................... 250
Convictions............................................................................................................................ 150
Fines ...................................................................................................................... $ 0.9 million
Restitutions ............................................................................................................ $51.6 million
Forfeitures................................................................................................................... $ 80,000




  1 For definitions   of these categories,   please see the Appendix to the Office of Investigations     Section on page 39.
  2 Includes adjustments     after the close of the prior reporting period.


                                                                    4
Semiannual Report to the Congress                                                    April 1 - September 30, 1993




OFFICE OF AUDIT

                                    During _this reporting period, 218 audits of program activities,
                                    grants, and contracts were issued. A list of these audit reports is
                                    contained in the Audit and Schedules Section of this report. Of
                                    these, 27 were performed by OIG auditors, 20 by CPA auditors
                                    under OIG contract, 35 by state and local government auditors
                                    for DOL grantees and subrecipients, and 136 by CPA firms hired
                                    by DOL grantees or subrecipients.

Major Activities                    Major audits during this period focused on the Department's adju-
                                    dication function, the Targeted Jobs Tax Credit Program, the Trade
                                    Adjustment Assistance Program, and financial management.

                                    In addition, during this period, senior staff participated in the Vice
                                    President's National Performance Review and in various reinvent-
                                    ing Government committees.


                                    A major activity    under the Office      of the Secretary          is the
OFFICE OF THE                       Department's adjudication function. This is accomplished through
SECRETARY                           the Office of Administrative Law Judges (OALJ), Benefits Review
                                    Board, Employees' Compensation Appeals Board, Wage Appeals
                                    Board, and the Office of Administrative Appeals (OAA). The first
                                    four conduct hearings and render decisions on appeals filed un-
                                    der legislation administered by the Department, and the OAA pre-
                                    pares the Secretary's final decisions for appealed cases.

                                    In this reporting period, the OIG issued performance audits of the
                                    Office of Administrative Appeals and the Office of Administrative
                                    Law Judges, and resolved audit findings for a prior audit of the
                                    Benefits Review Board. The OIG is also currently performing an
                                    audit of the adjudicatory function for workers' compensation claims
                                    administered by the Department's Office of Workers' Compensa-
                                    tion Programs.


                                    Office of Administrative Appeals Audit

                                    The Office of Administrative Appeals (OAA) prepares final ad-
                                    ministrative decisions which arise primarily from Administrative
                                    Law Judge (ALJ) hearings where regulations provide that the
Semiannual Reportto the Congress                                                          April 1 - September 30, 1993




                                         decisions are directly reviewed by the Secretary or other depart-
                                         mental officials.

                                         The OIG examined OAA's role in carrying out the Department's
                                         adjudicatory responsibilities. Specific objectives were to identify
                                         and evaluate OAA methods for establishing case processing pri-
                                         orities and managing its workload.

Many Office of Administrative            The OIG found no standard of timeliness for processing OAA's
Appeals   cases   linger   for   years   caseload, for example:

                                         o        OAA's 26 oldest cases have been pending an average of
                                                  7.5 years (from receipt in OAA);

                                         o        the average age of the 197 cases completed in Fiscal Year
                                                  1992 was 1.6 years;

                                         o        the average age of OAA's 178 backlogged cases was 2.5
                                                  years; ancl

                                         o        OAA doe.,; not develop and utilize information essential to
                                                  efficient resource and workload management.

                                         The major deficiencies in OAA's workload management and pro-
                                         ductivitywere of such significance that they may have adversely
                                         affected parties awaiting final decisions. The OIG also made rec-
                                         ommendations to improve the efficiency of OAA's system of
                                         workload management and the effectiveness of its adjudication.
                                         The OAA has not responded to our recommendations. (ReportNo.
                                         17-93-009-01-010;   issued   May 19, 1993)




                                         Office of Administrative Law Judges Audit

                                         In response to a request from the former Deputy Secretary, the
                                         OIG conducted a performance audit of the Office of Administra-
                                         tive Law Judges (OALJ). The audit found the design and organi-
                                         zational structure of the OALJ was conducive to accomplishment
                                         of its mission. However, DOL has not established timeliness stan-
                                         dards or goals fi3r adjudication activities conducted by the OALJ.

                                         For Fiscal Year 1991, it took the OALJ an average of over 14
                                         months to reach final decision, and cases pending at the time of



                                                             6
Semiannual Reporttothe Congress                                                    April1 - September30, 1993




                                  the OIG audit had an average age of about 11 months. The re-
                                  quirement of judicial independence does not preclude a need for
                                  the Department to provide timely service to constituents. The
OIGquestions Office of            current lack of OALJ timeliness standards or goals impede the
Administrative Law Judges         Department's ability to determine the efficiency of the provision of
timeliness                        its OALJ adjudication services. The OIG recommended the De-
                                  partment establish such standards or goals. The Department has
                                  not responded to our recommendations.          (Report No. 17-93-008-
                                  01-010; issued June 11, 1993)


                                  Benefits Review Board Organizational and Management             Review

                                  The Benefits Review Board (BRB) was established by Congress
                                  in 1972 primarily to issue final dispositions of appeals under the
                                  Black Lung Benefits Amendments to the Federal Coal Mine Health
                                  and Safety Act of 1969.

Significant problems              In response to a request from the former Deputy Secretary of La-
in Benefits Review Board          bor, the OIG conducted an organizational      and management      re-
structure and procedures          view of the BRB. The OIG review of BRB's overall management
                                  practices revealed significant problems in the organizational struc-
                                  ture and appeal processing procedures. An acting Chief Judge
                                  was recently appointed for the BRB, and has responded that cor-
                                  rective measures will be taken to address the most significant
                                  OIG recommendations.

                                  In addition to certain organizational changes, the OIG recom-
                                  mended the BRB authorize a task force to develop specific pro-
                                  cedures to improve the efficiency of the Board in accepting, re-
                                  viewing, and finalizing appealed Black Lung cases. The Board
                                  has indicated it will make organizational changes and has imple-
                                  mented such a task force. (ReportNo.03-93-003-01-010;issued Nov.
                                  13, 1992(Resolution))


                                  The Employment and Training Administration (ETA) administers
                                  a number of statutes related to employment and training services
EMPLOYMENT                        for the unemployed and under-employed, and employment secu-
AND TRAINING                      rity for workers.
ADMINISTRATION

                                  A major ETA responsibilityis to administer the Job Training Part-
                                  nership Act (JTPA/for the delivery of employment and training




                                                   7
Semiannual Report to the Congress                                                   April 1- September30, 1993




                                    services funded through grants administered predominantly by
                                    the states. ETA's employment security functions are carried out
                                    by the Unemployment Insurance Service (UIS), which adminis-
                                    ters a nationwide unemployment compensation system, and the
                                    U.S. Employment Service (USES) which administers the opera-
                                    tion of a nationwide public employment service system.

State Employment                    Programs under the UIS and the USES are operated by State
Security Agencies                   Employment Security Agencies (SESAs). During this period, the
                                    OIG conducted several important audits in this area, as follows.

                                    Trade Adjustment Assistance Program

                                    The purpose of the Trade Adjustment Assistance (TAA) program
                                    is to assist workers, who lost their jobs because of increased im-
                                    ports, to return to suitable employment. Created by the Trade Act
                                    of 1974, the most recent program amendments emphasize the
                                    importance of training as a means to assist workers in finding
                                    suitable employment.

                                    Audit of Trade Adjustment Assistance Program

                                    The OIG conducted a pt._.rformanceaudit of the TAA program in
                                    nine selected states to determine whether the program assisted
                                    workers in finding suitable employment and, where training was
                                    needed, how the SESAs managed their training efforts.

                                    The OIG concluded, for a substantial portion of participants in its
                                    sample, the program fell short of meeting the training and reem-
                                    ployment goals implied by the Act. Additionally and more impor-
After/9years     in operation,      tantly, the lack of clearly defined program objectives, participant
doesTAA help dislocated             foIIowup, and relevant performance measures contribute to the
workers return to suitable          absence of data necessary to readily evaluate the program. After
employment?                         19 years of operation, neither ETA nor the states know whether
                                    the TAA program is effective in assisting workers to return to suit-
                                    able employment in occ.upations not adversely affected by in-
                                    creased imports.

                                    The OIG determined that ETA does not require states to collect
                                    data on how participants fared after leaving the TAA program (as
                                    it requires for other training programs). Therefore, in addition to
                                    reviewing the states' management controls over program opera-




                                                     8
SemiannualReportto theCongress                                                   April1- September30, 1993




                                 tions, the OIG determined the status of 1,198 former program
                                 participants and found:

                                 •   While 6 out of every 10 TAA participants found new employ-
                                     ment during the year following their participation, fewer than 4
                                     out of 10 found new employment which paid or had potential
                                     to pay suitable wages (which OIG interpreted as 80 percent or
                                     more of their former wages). An additional 2 out of every 10
                                     participants returned to work for their former employers.

Only 1 in leparticipants         •   Although the Act was amended to specifically emphasize train-
found training-related,              ing as a means to assist workers to return to suitable employ-
suitableemployment                   ment, just over half the participants were enrolled in TAA-ap-
                                     proved training. Of these, just over 2 in 10 found training-
                                     related employment and 1 in 10 found new training-related
                                     employment that paid or had the potential to pay suitable
                                     wages.

                                 °   The Act requires that participants enroll in approved training
                                     as a condition for receiving a basic allowance. Although the
                                     Act intended that waivers be granted sparingly, participants
                                     who did not wish to attend training were almost always granted
                                     waivers without losing entitlement to the allowance.

                                 The OIG concluded that the following were areas where TAA pro-
                                 gram management should be improved:

                                 °   While the law promotes training as a means to achieve suit-
                                     able employment, neither the Congress nor ETA defined what
                                     accomplishments should be measured or what would consti-
                                     tute an acceptable level of performance. Therefore, the pro-
                                     gram was not managed to measure the effectiveness of train-
                                     ing or to achieve specific performance goals.

                                 °   Because there was no requirement in the Act or implementing
                                     regulations to collect or report information about what hap-
                                     pened to TAA participants after they completed or dropped
                                     out of the program, virtually no such information existed. Al-
                                     though most of the states prohibited certain types of training
                                     or institutions as a means to improve training quality, few con-
                                     ducted periodic monitoring or quality reviews of program op-
                                     erations. The OIG also noted that documentation of decisions
                                     affecting participants' training, waivers or required services



                                                  9
Semiannual Report to the Congress                                                     April 1- September 30, 1993




                                        was not adequate to permit a quality assessment of program
                                        delivery.

                                    o   The TAA Program Information Systems and related reports
                                        did not measure program performance. Specifically, the re-
                                        quired quarterly report to ETA on program activities and ser-
                                        vices did not gather sufficient information about training and
                                        reemployment outcomes, and several critical data elements
                                        were incomplete and inaccurately or inconsistently reported.

                                    o   Internal controls appeared to be weak regarding grants of train-
                                        ing waivers, limits on training costs, and the period of entitle-
                                        ment to TAA-funded training.

                                     ETA concurred in principle with many of the findings and recom-
                                    mendations in this, report, including the need to give more atten-
                                    tion to ensuring compliance with the statutory requirements re-
                                    garding training waivers. ETA also agreed that stated program
                                    objectives and measures of performance are desirable, and that
                                    followup is needecl in conjunction with whatever definitive goals
                                    and objectives may be established.

                                    However, ETA disagreed with our use of the definition of"suitable
                                    employment" contained in Section 236(e) of the Act as amended,
                                    which incorporates the 80 percent wage criteria as a measure for
                                    determining whether the program is meeting its purpose. ETA
                                    believed the definition of"suitable employment" at Section 236(e)
                                    applies only to determining the propriety of providing training and
                                    should not be applied in determining the success of participant
                                    outcomes.

                                    The OIG believes that use of the definition of "suitable employ-
                                     ment" to evaluate post-training employment was appropriate and
                                     neither arbitrary nor inconsistent with the overall intent of the Act.
                                    The Act allows covered workers to quit jobs paying less than 80
                                     percent of their former wages to attend TAA-approved training
                                    and receive Trade Readjustment Assistance (TRA) payments.
                                    Thus, the OIG believes that the Act was intended to help workers
                                    find jobs that protect their wage base--not just to help them obtain
                                    jobs at a skill level other than that which they would have been
                                    able to obtain without such training, as suggested in ETA's com-
                                    ments. (ReportNo.05-93-008-03-330;   issuedSept.30, 1993)




                                                     10
Semiannual Reportto the Congress                                                    April 1- September 30, 1993




                                   Targeted Jobs Tax Credit Program

                                   The Targeted Jobs Tax Credit (TJTC) program provides for a Fed-
                                   eral income tax credit, based on wages paid, for employers who
                                   hire and retain individuals from certain target groups who are in
                                   need of special assistance in obtaining employment. First autho-
                                   rized by the Revenue Act of 1978, the TJTC program has been
                                   extended and amended several times.

                                   Alabama Targeted Jobs Tax Credit Program (TJTC) Audit

TJTC has primarily served          Audit findings in a recently issued OIG report suggest that the
as a tax windfall for              Targeted Jobs Tax Credit (TJTC) program has primarily served
participating   employers          as a tax windfall for participating employers. The audit disclosed
                                   that employers who hired TJTC-certified individuals indicated they
                                   would have hired 95 percent of the participants in the OIG sample
                                   regardless of the tax credits. While employers, many of which
                                   were large national and international corporations, often paid com-
                                   mercial vendors to assist with eligibility screening and certifica-
                                   tion, this was typically not completed until after the individual had
                                   been hired. The audit also disclosed that the TJTC program op-
                                   erating costs exceeded benefits generated by the program.

Secretary   shouldadvisethe        The audit found that, in Alabama, the TJTC tax credit was not
Congress to discontinue       or   effective in promoting the employment of individuals in the target
redirect theprogram                group. TJTC participants were frequently employed in low-skilled,
                                   low-paying, high-turnover and/or part-time positions which did not
                                   offer a career path. The pay and skill level of TJTC jobs held by
                                   TJTC-certified individuals were typically similar to jobs held both
                                   before and after the TJTC employment. The OIG concluded these
                                   types of jobs should not require Federal tax credit incentives. The
                                   OIG recommended the Secretary of Labor advocate that Con-
                                   gress consider whether the program should be discontinued or
                                   redirected to target individuals most in need of hiring assistance.

                                   ETA responded it might propose more specific targeting toward
                                   certain industries, wage levels, job categories, and target group
                                   restructuring. ETA also suggested that administration of the pro-
                                   gram be turned over to the Internal Revenue Service. The State
                                   of Alabama generally agreed with the report, but indicated that
                                   Federal funding constraints will inhibit substantive improvements.
                                   The OIG has planned a nationwide audit of the TJTC program for
                                   Fiscal Year 1994. (Report No. 04-93-027-03-320;  issued Aug. 20, 1993)




                                                    11
SemiannualReporttothe Congress                                                  April1- September30, 1993




JTPA Title II Programs           Title II of the JTPA authorizes employment and training services
                                 for eligible adults and youth and is funded through grants admin-
                                 istered by the states.

                                 Selected SDAs Fixed Fee JTPA Contracts With Quality Plus, Inc.

                                 During the period ,July 1988 through December 1991, Quality Plus,
                                 Inc. (Quality Plus), contracted with selected Service Delivery Ar-
                                 eas (SDAs) in the State of Georgia to enroll, train and place JTPA
                                 participants in unsubsidized employment. Quality Plus received
                                 payments totaling $525,503 of which the OIG questioned
                                 $296,892, primarily due to improper program management by the
                                 SDAs and irregularities in certain Quality Plus' activities.

                                 Questioned costs of $131,384 resulted because the SDAs referred
                                 participants to Quality Plus for training which duplicated the par-
                                 ticipants' previous training or experience, and paid for placing
                                 participants in occupations which did not relate to their training.
                                 Poor SDA monitoring and administration of vendor activities con-
                                 tributed to these findings. Also, the SDA contracts with Quality
                                 Plus did not contain adequate safeguards for JTPA funds.

Granteeallegedlygave             Questioned costs of $253,708 resulted from irregularities in the
participants   answers to        participant examination process and fees charged for activities
examinationsandaltered           which the OIG could not substantiate. Quality Plus allegedly gave
examinationsto indicate          participants answers to examinations, altered examinations to in-
passingscores                    dicate passing scores, or were otherwise unable to document that
                                 participants had been tested. It also claimed fees for employ-
                                 ment-related activities that the OIG was either unable to verify or
                                 found had violated contract or program requirements.

                                 In some instances multiple violations occurred and certain costs
                                 were questioned for more than one reason. The State and the
                                 SDAs disagreed with several findings in the report. The most
                                 significant involves the reliance OIG placed on the State's unem-
                                 ployment insurance wage records as a means of validating par-
                                 ticipant placements. The State generally agreed with the OIG
                                 findings concerning monitoring of SDAs and has begun recom-
                                 mended monitoring and internal reviews. (ReportNo.04-93-046-03-
                                 340; issuedSept.23, 1993)




                                                 12
Semiannual Reportto the Congress                                                    April 1 - September 30, 1993




                                   City of Los Angeles JTPA OJT Brokers

                                   In September 1991, the OIG issued seven audit reports on per-
                                   formance-based contracts between JTPA service delivery areas
                                   and third parties (or brokers) whose responsibilities included per-
                                   forming activities related to the JTPA on-the-job training (OJT)
                                   program. At that time, certain questioned costs for the City of Los
                                   Angeles were not reported.

                                   During this reporting period, the audit report for the City of Los
                                   Angeles was issued. The OIG questioned $783,475 because of
                                   inflated placement claims and other unsupported claims on the
                                   part of certain brokers. (Report No. 05-91-046-03-340; issued July 19,
                                   1993)




JTPA Title III Programs            The Economic Dislocation and Worker Adjustment Assistance
                                   (EDWAA) program authorized under Title III of the JTPA provides
                                   retraining and support services to eligible dislocated workers. In
                                   this reporting period, the OIG audited the Commonwealth of Mas-
                                   sachusetts' EDWAA Program Years 1989 through 1991.

                                   Massachusetts Dislocated Worker Retraining Services

33%of auditeddislocated            Primarily because of poor procurement systems, in particular a
workerfunds ineffectively          failure to perform cost and pricing analysis prior to contracting,
utilized                           the OIG determined that $525,879, or 33 percent of the JTPA
                                   retraining funds audited, were ineffectively utilized. For example,
                                   dislocated worker training funded by JTPA was considerably more
                                   expensive than similar training available to the public. In one
                                   instance, GED training costs offered to the public ranged from
                                   free to $50. JTPA costs for the same service, however, averaged
                                   $1,589. The State generally disagreed with the OIG's findings.
                                   (ReportNo.02-93-274-03-340; issuedSept.30, 1993)



JTPA Title IV Programs             JTPA Title IV authorizes employment and training programs for
                                   the Job Corps, Veterans' Employment, Seasonal Farmworkers,
                                   Native Americans, and other activities and programs collectively
                                   known as "National Programs."

                                   The Job Corps Program. This program is designed to assist
                                   economically disadvantaged, unemployed, and out-of-school youth



                                                    13
SemiannualReportto theCongress                                                    April 1- September30,1993




                                 (ages 16-24) in obtaining employability skills by offering basic
                                 education, vocational training, work experience and supportive
                                 services in a residential setting. Training centers are operated by
                                 both private vendors and Federal agencies.

                                 Compliance With Job Corps Eligibility Requirements

Weaknesses     in Job Corps'     Primarily because of weaknesses in Job Corps' eligibility deter-
eligibility screening remains    mination (or "screening") procedures, a prior OIG audit concluded
                                 the eligibility of students could not be satisfactorily demonstrated.
                                 The Job Corps responded by designing and implementing a re-
                                 vised screening system that requires verification of eligibility cri-
                                 teria for about 5 percent of applicants. Less stringent screening
                                 procedures apply to the remaining applicants.

                                 For Program Year 1992, the OIG audited the results produced by
                                 the new system and found it was not possible to confirm program
                                 eligibility in approximately 81 percent of the files requiring full
                                 documentation and in 55 percent of the remaining files (in which
                                 self-certification is allowed). Job Corps is addressing OIG rec-
                                 ommendations to improw_ its screening process. (ReportNo.12-93-
                                 017-03-370; issued Sept. 17, 1993)


                                 International Masonry Institute

                                 The International Masonry Institute (IMI) is a nonprofit corpora-
                                 tion which contracted with the Job Corps to provide masonry train-
                                 ing programs at 36 Job Corps and Civilian Conservation Centers.
                                 The OIG audited the costs claimed by IMI for the period July 1989
                                 through December 1990, and conducted an audit of contract per-
                                 formance for Program Years 1990 and 1991.

                                 Of the $1.2 million in indirect costs proposed by IMI for Calendar
                                 Year 1990, the OIG questioned over $400,000 because of (1)
                                 unreasonable and unallocable costs for financial and accounting
                                 services, and (2) the incorrect charging of benefits and travel costs
                                 of management officials for time and effort expended on IMl's own
                                 labor-management relations activities. The OIG also questioned
                                 $31,258 of direct costs primarily because of excessive salary and
                                 travel costs associated with IMI meetings and/or conventions. The
                                 portion of the questioned costs applicable to DOL is $104,184.




                                                   14
SemiannualReport to the Congress                                                  April1 - September30, 1993




                                   IMl's training contract with the Department contains a [statutory]
                                   performance goal for placing students in apprenticeship jobs in
                                   the masonry industry. For the audit period, 9 percent of program
                                   terminations, or 58 students, were placed in apprenticeship jobs.
                                   IMI was able to meet or exceed the minimum performance goal
                                   (for PYs 1990 and 1991) only because the reporting standard
                                   gives equal recognition to placements in non-training related jobs.
                                   Moreover, the reported placements in training-related jobs were
                                   significantly overstated because non-training-related placements
                                   were improperly reported as placements in training-related jobs.
                                   IMI disagreed with the majority of the OIG's findings. (ReportNo.
                                   18-93-011-07-735;issued Sept. 9, 1993and Report No. 18-93-012-03-370;
                                   issuedSept.9, 1993)

                                   National Plastering Industry's Joint Apprenticeship   Trust Fund

                                   The National Plastering Industry's Joint Apprenticeship Trust Fund
                                   (the Fund) is a nonprofit organization established by related in-
                                   dustry groups to provide plastering apprenticeship training. The
                                   OIG audited about $3 million of the $10 million in costs claimed
                                   by the Fund under Job Corps contracts for the 2-year period ended
                                   June 30, 1991. The OIG questioned $175,313 of the Fund's
    Non-Job    Corps   activity
    costs chargedto that           charges to the Department of Labor and $19,206 of charges to
   program                         the Department of the Interior (with which the Fund also had a
                                   Job Corps contract). Most of the questioned costs resulted from
                                   (1) costs for salaries and fringe benefits for non-Job Corps activi-
                                   ties; (2) consultant costs and items of nonexpendable equipment
                                   purchased without the approval of ETA; and (3) unallowable profit
                                   on the Fund's sale of materials to Job Corps Centers. The Fund
                                   disagreed with most of the questioned costs. (ReportNo. 18-93-014-
                                   03-370;issuedApr.26, 1993)


                                   Native American Programs. These programs provide job train-
                                   ing and employment-related services to eligible native Americans.

                                   American Indians for Development, Inc. (AID)

                                   At the request of ETA, the OIG audited the American Indians for
    OIG questions100%              Development, Inc. (AID). The audit resulted in questioned costs
    ofgrantee expenditures         of $101,805, which represents the total expenditures AID reported
                                   to ETA for the 6-month period that ended December 31, 1991.




                                                   15
SemiannualReport to the Congress                                                          April 1 - September 30, 1993




                                   The OIG found that AID was not able to establish the existence of
                                   participants and classroom training programs. AID used JTPA
                                   funds for purposes which were unrelated to the program or could
                                   not be supported, and had not developed an adequate system to
                                   record and account for property purchased with JTPA funds. AID
                                   generally agreed 'with the OIG findings, but disagreed with the
                                   classification of the entire $101,805 as questioned costs. (Report
                                   No. 02-93-207-03-355; issued Sept. 29, 1993)



JTPA Audit Resolution              In this reporting p_._.riod,
                                                             ETA issued final determinations on sev-
                                   eral OIG audits that questioned the expenditure of JTPA funds.
                                   As reported previously, for Fiscal Years 1991 and 1992, ETA dis-
                                   allowed almost 80 percent of the JTPA expenditures questioned
                                   by the OIG.

                                   Opportunities Industrialization Centers of America, Inc.

                                   A previous audit of the Opportunities Industrialization Centers of
                                   America, Inc. (OICA) questioned almost $900,000 of direct labor
                                   and fringe benefits under two JTPA grants. During the resolution
                                   process, at the request of ETA, the OIG reviewed additional costs
                                   submitted by OICA as allowable. This review reduced questioned
                                   costs by about $400,000.,

                                   Subsequently, the Office of the Solicitor requested that the OIG
                                   perform another review of additional OICA costs. The Depart-
                                   ment ultimately resolved the audit by agreeing that net payments
                                   exceeded allowable costs by $205,960 for one grant and allow-
                                   able costs exceeded paid costs for the second grant by $124,272.
                                   (Report No. 18-93-015-03-340; issued April 30, 1993)

                                   Northern California Indian Development Council, Inc.

                                   The OIG questioned $134,462 primarily because the grantee
                                   charged salaries, fringe benefits and indirect costs to its DOL grant
                                   based upon budgeted arnounts rather than actual time worked.
                                   They also improperly enrolled individuals in community service
                                   employment activities after these individuals had completed the
                                   maximum 1,000 hours of work experience participation. ETA dis-
                                   allowed $131,917 of the questioned costs. (Report No. 18-93-010-
                                   03-355; issued Mar. 4, 1993 (Resolution))




                                                     16;
SemiannualReport to the Congress                                                  April 1- September 30, 1993




                                   United American Indians of Delaware Valley, Inc. (UAIDV)

                                   The OIG questioned $277,744 of JTPA Title iV expenditures of
                                   the UAIDV primarily because of excess administrative salaries
                                   and related fringe benefits costs charged to the grant.

                                   ETA disallowed the entire amount which represented about 35
                                   percent of JTPA costs reported by UAIDV for the period July 1987
                                   through June 1991. (ReportNo.18-93-002-03-355; issuedDec.23, 1992
                                   (Resolution))



Older Worker Programs              The Older Americans Act of 1965 authorizes subsidized part-time
                                   work opportunities in community service activities for unemployed
                                   low-income persons age 55 and over.

                                   National Indian Council on Aging

                                   The National Indian Council on Aging (NICOA), an advocate for
                                   American Indian and Alaskan Native elders, is a sponsor of older
                                   worker programs in several southwestern States. The OIG per-
                                   formed both a financial audit and a limited scope review of pro-
                                   gram performance of NICOA operations for Program Years 1989
                                   and 1990.

Lessthan 50%of unsubsidized        The OIG was unable to validate the actual number of unsubsidized
placementsvalidatedby audit        employment placements. While the NICOA reported to ETA it
                                   had placed 118 enrollees into unsubsidized employment in the 2-
                                   year audit period, the OIG was only able to confirm 50 place-
                                   ments.

                                   The NICOA stated that because it serves an under-educated and
                                   extremely disadvantaged rural population, it "operates its program
                                   with an emphasis on the social/economic benefits it provides rather
                                   than on unsubsidized placements." (ReportNo. 18-93-020-03-360;   is-
                                   sued Sept.9, 1993and ReportNo. 18-93-021-03-360;
                                                                                  issuedSept. 9, 1993)


Other ETA Audit                    TAA Special Request (Resolution)
Resolution
                                   The OIG questioned $140,550 in Trade Adjustment Assistance
                                   expenditures related to classes which, contrary to program re-




                                                   17
Semiannual Report to the Congress                                                  April 1- September 30, 1993




                                    quirements, did not provide occupational training or remedial edu-
                                    cation. ETA disallowed these expenditures.

                                    The OIG also questioned $46,700 in excess tuition expenditures
                                    which were used to finance the purchase of computers and soft-
                                    ware. ETA allowed this, amount when the grantee documented
                                    that the equipment was required as part of the approved training
                                    and had consulted with ETA regarding the purchase. (ReportNo.
                                    09-93-200-03-330;issuedMar.19, 1993)

                                    Indiana Dept. of Employment and Training Services (Resolution)

                                    The OIG questioned almost $3 million because Indiana requested
                                    and received Federal funds to upgrade their Unemployment In-
                                    surance automation when other non-Federal funds were avail-
                                    able. Federal regulations require that Federal funds be requested
                                    only when other funds are not available. Indiana obligated State
                                    funds for its automation projects prior to receiving the Federal
                                    grant and, subsequently, shifted the funding sources from the State
                                    to the Federal grant. ETA disallowed the entire amount. (Report
                                    No.05-93-002-03-325;issuedMar.24, 1993)


....................                The OIG has performed annual audits of the Department's finan-
FINANCIAL                           cial statements since 1986. The core system of a new central
MANAGEMENT                          accounting system, the IDOLAR$, was implemented by manage-
                                    ment in 1990. With the passage of the Chief Financial Officers
                                    (CFO) Act, also in 1990, management made a commitment to
                                    take responsibility for its,financial reporting and enhancement of
                                    related financial nqanagement capabilities.

Seriousweaknesses
                still exist in      Although there has been improvement in the Department's finan-
Department's financial              cial operations, serious weaknesses still exist. Many have ex-
operations                          isted since the 1986 financial statement audits. For the past 2
                                    years, the OIG has raised concerns about the Department's (1)
                                    implementation of the CFO organization, (2) improvements in fi-
                                    nancial and performance reporting, and (3) complete implemen-
                                    tation of the integrated financial management system. The last
                                    two issues are addressed in the discussion of current audit
                                    findings.




                                                    18
Semiannual Report to the Congress                                                   April 1 - September 30, 1993




Status of Critical Financial        The OIG remains concerned that although a CFO organization
Management Needs                    plan has been approved by OMB for some time, 3 years after
                                    passage of the CFO Act, the Department has not implemented
                                    this plan. Most importantly, the Chief Financial Officer position
                                    has not been permanently filled. Because a permanent CFO has
                                    not been nominated or confirmed by the Senate, the Assistant
DOL needsthe leadership of a        Secretary for Administration and Management is serving as Act-
permanent     chief financial       ing CFO. The Department of Labor needs the leadership of a
officer                             permanent CFO.

                                    Equally disconcerting is management's attitude toward the finan-
                                    cial audit process. Management has frequently stated that they
                                    do not use financial statements to manage. The OIG agrees.
                                    Prior to adjustments, the financial statements reflect the quality of
                                    information in the underlying systems, and these systems have
DOLfinancialsystems unable          not been able to produce consistent, complete, reliable, and timely
toproduce     reliable andtimely    data. Consequently, the financial statements require significant
data                                adjustments with commensurate increases in the time and costs
                                    associated with their preparation and audit.

                                    All too often during the audit process management has expected
                                    the OIG to compensate for what can be characterized              as
                                    management's lack of attention to accounting detail, and to ac-
                                    complish in a matter of weeks or months what the Department
                                    has not accomplished in years. The OIG's responsibility for the
                                    financial statements is to render an opinion on the fair presenta-
                                    tion of those statements, not to perform the Department's account-
                                    ing work. During the audit of the financial statements, when the
                                    OIG identified necessary adjustments          to the statements,
                                    management's frequent response has been that if the OIG identi-
                                    fied an accounting deficiency, then they should develop the ad-
                                    justing entries to correct the deficiency.         This is clearly
                                    management's responsibility, not the OIG's.


Fiscal Year 1992                    The Department of Labor is a designated pilot agency under the
Financial Audits                    CFO Act. In addition to the required audit of the Department's
                                    Consolidated Financial Statements, the OIG audited the state-
                                    ments of related trust and revolving funds.




                                                    19
SemiannualReportto the Congress                                                  April1 - September30, 1993




                                  FY 1992 and FY 1991 Consolidated Department of Labor
                                  Financial Statement Audit

                                  The Department's financial statements for FY 1992 reflect $51.1
                                  billion in expenses, of which nearly 90 percent are "pass-through"
                                  funds or funds actually expended by state or local government.
                                  Of the total, about $39 billion is expended by the states for unem-
                                  ployment insurance benefit payments, and another $4.7 billion by
                                  state and local governments that operate JTPA programs. The
                                  balance of the expenses are for benefit payments and services
                                  provided directly by the Department.

                                  Report on Compliance. The results of our tests for compliance
                                  did not disclose any material instances of noncompliance.

                                  Financial Statement Opinion.    The auditors' opinion on the
                                  Department's FY 1992 Consolidated Financial Statements is quali-
                                  fied because the OIG was unable to obtain sufficient evidence
                                  from the U.S. Department of Treasury to support amounts recorded
                                  for Federal unemployment and coal production taxes.

                                  Report on Intemal Control Structure. The OIG identified five ma-
                                  terial internal control weaknesses:

                                  •    Improvements are needed in the Department's Accounting
                                      Operations. Internal control weaknesses in the Department's
                                      accounting operations remain essentially unchanged from Fis-
                                      cal Year 1991. Inadequate controls over data input and fail-
                                      ure to follow established procedures causes the Department's
                                      financial reports to be inaccurate and incomplete. As a result,
                                      the general ledger contains unsupported account balances
                                      and the efficiency of accounting operations is adversely af-
                                      fected. These conditions resulted in numerous audit adjust-
                                      ments to the (.Consolidated Financial Statements.

                                  •   The Department's Financial Reporting Procedures Need Im-
                                      provement. The Department assumed full reporting responsi-
                                      bility for its FY 1992 financial statements. This notwithstand-
                                      ing, serious weaknesses persist. Contributing to the number
                                      of audit adjustments for the FY 1992 financial statements are
                                      inaccurate beginning balances, inadequate agency guidance
                                      for financial report and statement presentation, and insuffi-
                                      cient quality control over financial reports.



                                                  20
Semiannual Report to the Congress                                                     April 1- September 30, 1993




                                    •   Improvements are needed in the Department's Accounting and
                                        Reporting for Grants. In terms of dollars expended by DOL,
                                        grants management is second only to UI benefit payments.
                                        Though some improvements were noted, the OIG found prob-
                                        lems similar to those identified in the FY 1991 financial state-
                                        ments. The lack of reconciliations, untimely recording of grant
                                        information, inaccurate accruals, and other related weaknesses
                                        results in an inadequate departmental accounting system for
                                        its grant-making agencies (ETA, BLS, OSHA, MSHA, and
                                        VETS).

                                    •   ETA needs a more comprehensive accounting system for the
                                        Unemployment Trust Fund (UTF). The Federal-state unem-
                                        ployment insurance (UI) program requires effective manage-
                                        ment of a $50 billion trust fund. While the Department re-
                                        ported the lack of a comprehensive accounting system for UTF
                                        activity as a material nonconformance in its 1992 FMFIA re-
                                        port, it has made little progress in developing a comprehen-
                                        sive system of financial control over this fund.

                                        For FY 1992, the OIG found improvements were needed in (1)
                                        accounting and reporting for the cost of benefit programs, (2)
                                        accounting and reporting for the Federal Employees' Com-
                                        pensation Account program, and (3) accounting policies and
                                        a financial reporting manual for the UTF.

                                    •   Federal Tax Revenue Audit Assurances needed from Trea-
                                        sur_. The Internal Revenue Service (Treasury) collects UI and
                                        coal tax revenue for the UTF and the Black Lung Disability
                                        Trust Fund. Because the Department does not have access
                                        to Treasury's accounting records and receives no indepen-
                                        dent assurance on the adequacy of its accounting system, the
                                        OIG was unable to obtain audit assurances on revenues for
                                        these funds.

                                    (Report No. 12-93-008-07-001; issued Sept. 30, 1993)

                                    ETA Fiscal Year 1992 General and Revolving Funds Financial
                                    Audit

                                    The OIG audited the financial schedules that formed the basis for
                                    ETA's   general   and revolving    fund-related     balances        in the




                                                      21
SemiannualReport to the Congress                                                   April 1- September 30, 1993




                                   Department's financial statements. Five material weaknesses in
                                   ETA's internal control structure were identified:

                                   o   The Department's general ledger did not include the neces-
                                       sary general accounting controls to produce accurate finan-
                                       cial statements. Specifically, several of ETA's subsidiary led-
                                       gers were not fully compatible nor integrated with the general
                                       ledger, reconciliation of general ledger control accounts to ETA
                                       subsidiary ledgers was inadequate, and inappropriate account-
                                       ing procedures were used for certain transactions.

                                   o   Weaknesses in prior year audits (inaccurate accruals, improper
                                       "offsetting" of costs, and lack of necessary reconciliations in
                                       ETA's grant and contract management system) remain uncor-
                                       rected.

                                   •   ETA did not properly account for reimbursements from the
                                       Unemployment Trust: Fund (UTF), and drew down cash from
                                       the UTF in excess of immediate needs.

                                   o   ETA did not have adequate accounting control over Job Corps'
                                       real property and equipment nor ETA's own personal property.

                                   o   ETA did not properly account for and report its debt manage-
                                       ment activities.

                                   In addition to the above conditions, the OIG previously reported
                                   that ETA did not have internal controls in place to provide assur-
                                   ance that the Department received adequate compensation for
                                   its equity basis when property acquired with Federal grant funds
                                   by state employment security agencies (SESAs) was no longer
                                   used for DOL purposes. Based on a 1990 audit, this investment
                                   was estimated at $296 million in 472 properties as of September
                                   30, 1988. The Department drafted proposed instructions to the
                                   SESAs; however, they have yet to be issued. ETA disagreed with
                                   the majority of the findings.

                                   The OIG is also concerned that 12 months from the end of the
                                   1992 Fiscal Year were needed to compile and audit ETA's finan-
                                   cial schedules. While there were many factors which contributed
                                   to the delay, the OIG urges ETA to address the identified internal
                                   control issues. By prompt action, ETA can produce accurate and
                                   timely financial schedules.    (Report No. 12-93-001-03-001;issued
                                   Sept.30, 1993)


                                                   2:2
SemiannualReportto theCongress                                                     April 1- September30,1993




                                 UTF FY 1992 Financial Statement Audit

                                 The Department has not established an accounting system which
                                 includes general ledger control for the accounts that comprise
                                 the UTF. Further, because the Department does not have access
                                 to Treasury's accounting records and receives no independent
                                 assurance on the adequacy of its accounting system, the OIG
                                 was unable to obtain audit assurances on revenues for these funds.
                                 Therefore, the opinion on the UTF financial statements is quali-
                                 fied (see internal control report for the Department's consolidated
                                 financial statements). (Report No. 12-93-002-03-315; issued Sept. 30,
                                 1993)


                                 FY 1992 Working Capital Fund Audit

                                 Although the Department's FY 1992 Working Capital Fund (WCF)
                                 financial statements received an unqualified opinion on their fair-
                                 ness, improvements are needed in internal controls which could
                                 materially affect the presentation Of the statements.

                                 •      The portion of the accumulated balance exceeding that al-
                                        lowed by the enabling legislation should be reduced to avoid
                                        excessive user charges.

                                 •      Property and equipment accounts and records should be more
                                        complete and accurate.

                                 •      The allocation of selected costs to user agencies should be
                                        more complete.

                                 •      In presenting the Overview of the Reporting Entity, a required
                                        element of the financial statements, the intent of OMB Bulletin
                                        No. 93-02, Form and Content of Agency Financial Statements,
                                        should be met.

                                 Management believes that performance-related findings are not
                                 reportable conditions and the WCF accumulated fund balance is
                                 reasonable, based on anticipated needs. (ReportNo. 12-93-011-07-
                                 710;     issued   Sept.   30,   1993)




                                                      23
Semiannual Reporttothe Congress                                                       April1- September30, 1993




Fiscal Year 1992                  The Chief Financial Officers Act requires Federal agencies to
Agency Performance                develop an integrated accounting and financial measurement sys-
Measures                          tem that provides for the systematic measurement of performance.
                                  The OIG audited the performance measures reported in the
                                  Department's Consolidated Fiscal Year 1992 Financial Statements
                                  for: ETA's Job Training Partnership Act and Unemployment In-
                                  surance programs; ESA's Wage and Hour Division, Office of Fed-
                                  eral Contract Compliance Programs, and Office of Labor-Man-
                                  agement Standards; OSHA; MSHA; PWBA; and BLS.

                                  Generally, performance measures met current OMB requirements
                                  but can be improved to more accurately represent departmental
                                  and agency activities. The most common problems concerned
                                  (1) the lack of internal controls sufficient to ensure the integrity of
                                  statistical data which supported reported performance and (2) in-
                                  consistencies between data reported in different sections of the
                                  financial statements. Instances were found where certain perfor-
                                  mance measures were not reported at all, not presented in suffi-
                                  cient detail, or data supporting a certain performance measure
                                  could not be tracked to a management information system. Also,
                                  individual agency practices such as the combination of disparate
                                  activities into a single performance measure, inadequate internal
                                  control policy, and insufficient definitions of terms weakened the
                                  validity of performance measures. In some instances, additional
                                  performance measures would result in the increased utility of the
                                  financial statements. For OSHA, however, the OIG found a mate-
                                  rial weakness which requires individual reporting.

                                  Significant Weakness in Statistical     Reporting     of Occupational
                                  Injury and Illness Data

                                  The OSH Act mandates to the Secretary of Labor responsibility
                                  for gathering information about occupational injuries and illnesses.
                                  The Secretary designated BLS a role in collecting this informa-
                                  tion. While OSHA (under its interagency agreement with BLS) is
                                  responsible for ensuring that employers comply with its statutory
                                  record keeping and reporting requirements, BLS' role is to en-
                                  sure that employers follow its instructions for completing the peri-
                                  odic survey. In part, the data gathered by the BLS from informa-
                                  tion reported by employers is used to measure the effectiveness
                                  of the OSHA's enforcement. In our audit of performance mea-
                                  sures, the OIG concluded that a material weakness exists in the
                                  statistical reporting system for which BLS received approximately



                                                   24
Semiannual Report to the Congress                                                    April 1 - September 30, 1993




Split in DOL responsibility         $16 million in budget authority to operate during FY-1992. Be-
precludesOSHAfrom                   cause of the split of responsibilities and because BLS pledges
obtaining   worksite-specific       confidentiality to cooperating states and employers, each agency
dataneededfor enforcement           faces substantial limitations in ensuring the accuracy or complete-
                                    ness of this data. Moreover, this prevents OSHA from taking en-
                                    forcement action against employers who falsify or fail to report
                                    information to BLS for input in its annual survey, as required by
                                    Federal law. Consequently, this may adversely affect OSHA's
                                    overall enforcement program.

                                    Specifically, because of BLS' confidentiality constraints, there is
                                    no effective means to link OSHA and BLS data validation efforts
                                    with respect to individual employers' reports to determine whether
                                    an employer has reported inaccurate injury and illness informa-
                                    tion to BLS. Further, OSHA is prevented from using the worksite-
                                    specific information gathered by BLS to target planned inspec-
                                    tions of specific, high-hazard employers which may be identified
                                    by the survey.

                                    The OIG recommended that OSHA implement a program to moni-
                                    tor the ua_  of data submitted by employers and work with BLS
                                    to compare employer survey responses with that reported else-
                                    where. The OIG also recommended that OSHA work with BLS to
                                    revise the BLS policy of confidentiality to exclude those employ-
                                    ers found to have willfully falsified their survey data, and that such
                                    employers be immediately referred to OSHA for enforcement ac-
                                    tion.

                                    Shortly after our report was issued, the General Accounting Of-
                                    rice (GAO) testified before the House Subcommittee on Labor
                                    Standards on a just-completed audit. GAO is recommending that
                                    OSHA develop procedures for obtaining worksite-specific injury
                                    and illness data from employers so that it can better target its
                                    enforcement efforts." GAO's report discusses ways in which this
                                    can be accomplished.

                                    OSHA responded that corrective measures recommended in the
                                    OIG report will, in large part, depend on resolving the issue of the
                                    confidentiality regarding worksite-specific data. The BLS has
                                    voiced its strong belief that the maintenance of confidentiality is
                                    crucial to its mission and credibility. This issue is currently being
                                    examined by OSHA, BLS, and departmental management.




                                                     25
SemiannualReport to the Congress                                                  April 1 - September 30, 1993




                                   Departmental Management (DM) refers to those activities and
DEPARTMENTAL                       functions that implement and formalize policy, procedures, sys-
MANAGEMENT                         tems, and standards that promote efficient and effective opera-
                                   tion of the Department's administrative and managerial programs.

                                   In this reporting period, the OIG performed audits of the procure-
                                   ment of an OSHA Information Resource Management system, con-
                                   trols over the use of unauthorized software, and the indirect costs
                                   rates of a departmental grantee.



Information Resources               Information Resources Management refers to those activities as-
Management                         sociated with the collection, use, dissemination, and management
                                   of information and related resources. The term is commonly used
                                   in connection with the utilization of computers and other informa-
                                   tion processing equipment.

                                   Mandatory Approwal Not ,Obtained for Development          of OSHA's
                                   Property Management Inventory System

                                   The OIG performed an audit of the OSHA Information Technology
                                   budget process and determined OSHA had not followed the ap-
                                   plicable Federal regulations and departmental policies for the
                                   development of an automated information system (the Property
                                   Management Inventory System [OPMIS] developed by OSHA's
                                   Cincinnati Technical Center). OIG determined the system's life
                                   cycle cost exceeded OSHA's approved threshold of $100,000 by
                                   about $158,000, and included a $80,000 programming support
                                   contract for FY 1994.

                                   The OIG recommended that OSHA prepare documentation nec-
                                   essary to gain proper approval for the system development effort
                                   and delay execution of the contract for programming support until
                                   such approval is obtained. OSHA agreed to implement OIG's
                                   recommendations, resulting in a cost avoidance of $80,000. (Re-
                                   port No.19-93-005-10-001;
                                                           issuedSept. 16, 1993)

                                   Controls Over Unauthorized Software and Computer Viruses

                                   The OIG audited controls over unauthorized software and com-
                                   puter viruses in the Atlanta regional office of OASAM and ETA.
                                   Audit results show OASAM made strong efforts to safeguard com-
                                   puters against viruses. Both agencies, however, must improve



                                                   26
SemiannualReport to the Congress                                                   April 1 - September 30, 1993




                                   internal controls which prevent unauthorized software use and
                                   copyright infringement.

                                   For both agencies the OIG found (1) not all license agreements
                                   were maintained for software in use (however, proof of software
                                   ownership was present) and (2) unauthorized copies of software
                                   were present. The OIG also found use of employee-owned soft-
                                   ware and inadequate software tracking methods in OASAM. ETA
                                   had not performed software accountability reviews and the
                                   STONED computer virus was present in its microcomputers. The
                                   OIG made recommendations to each agency to remedy these
                                   deficiencies. (Report No. 19-93-002-07-720;issued Sept. 30, 1993 and
                                   ReportNo. 19-93-003-03-001;
                                                             issuedSept.30, 1993)


CostAIIocation Plans and           Indirect costs are those that have been incurred for common or
Indirect Cost Rates                joint objectives and cannot be readily identified with a particular
                                   final cost objective. The OIG audits indirect cost rates and pro-
                                   posals of departmental contractors and grantees.

                                   National Governors' Association

                                   The primary function of the National Governors' Association (NGA)
                                   is to provide leadership and guidance for policy development in
                                   areas of State and national interest. The NGA and the NGA Cen-
                                   ter or Policy Research, a separate nonprofit entity, received fund-
                                   ing from several Federal sources for Fiscal Years 1990 and 1991
                                   which comprised about one-third of annual revenues of about $11
                                   million.

                                   The OIG audited the indirect cost rates and costs claimed by the
                                   NGA for the three Fiscal Years ending June 30, 1991. The OIG
                                   also performed a limited review of direct costs charged to DOL
                                   grants.

                                   Questioned indirect costs of $422,970 resulted primarily from: (1)
                                   the charging of fees that were lower than the actual cost of ser-
                                   vices provided to affiliates (which resulted in overstating the indi-
                                   rect costs charged to Federal grants), (2) indirect costs that should
                                   have been Charged directly to NGA conference projects, and (3)
                                   "profit" inappropriately included in charges for services and sup-
                                   plies from affiliates. The DOL impact of these questioned costs is
                                   $54,439. The OIG also recommended a substantial increase in



                                                   27
Semiannual
        ReporttotheCongress                                                         April1- September
                                                                                                   30, 1993




                              the allocation bases and reductions in the indirect cost rates for
                              the 3 years audited. The NGA disagreed with most of the OIG
                              questioned costs. (Report No. 18-93-016-07-735; issued July 28, 1993
                              and Report No. 18-93-017-07-735;   issued July 28, 1993)



                              The Employment Standards Administration (ESA) administers
EMPLOYMENT                    employment-related standards primarily concerned with wages
STANDARDS                     and working conditions, workers' compensation benefits, compli-
ADMINISTRATION                ance by Federal contractors with the conditions of nondiscrimina-
                              tion and affirmative action programs, and safeguarding the finan-
                              cial integrity and internal democracy of American labor unions.
                              During this reporting period, the OIG continued to lead a PCIE
                              audit of the Federal Employees' Compensation Act (FECA) Pro-
                              gram operations in 12 Federal agencies.

PCIEIEmploying                The OIG is leading a review sponsored by the President's Coun-
Agency Review of              cil on Integrity and Efficiency (PCIE) to determine whether Fed-
FECA Program                  eral employing agencies are efficiently and effectively managing
                              their responsibilities under the FECA. OIGs from 12 Federal agen-
                              cies, which accounted for about 30 percent of the $1.5 billion ex-
                              pended for FECA during the year ended June 30, 1991, are par-
                              ticipating in the project. At this point, seven OIGs have issued
FECA program could bebetter   reports. The common thread of the reports is that the FECA pro-
administeredwith more         gram could be better administered if employing agencies were
aggressive monitoring   by    more aggressive in monitoring the status of employees receiving
employing agencies            program benefits and in managing their cases.

                              Of significance, the U.S. Department of Agriculture (USDA) OIG
                              found that USDA agencies had not implemented active programs
                              to furnish job placement assistance to FECA claimants who had
                              sufficiently recovered from their injuries (the ability to work was
                              supported by medical documentation from the claimants' own
                              physicians). The DOL/OIG estimated USDA unnecessarily ex-
                              pended about $15.5 million for wage compensation benefits for
                              periods when these claimants may have been employable. If job
                              placement measures are not taken to return these individuals to
                              alternative jobs, the DO/./OIG projects that USDA will unneces-
                              sarily expend as much as $135 million in future benefits.


REVISED MANAGEMENT            No significant revised management decisions were reported to
DECISIONS                     the OIG by departmental agencies.



                                                28
SemiannualReporttothe Congress                                                    April1- September30, 1993




OFFICE OF INVESTIGATIONS

                                 In fiscal year 1993, the Office of Investigations (OI) revised its
SUMMARY OF                       priorities to ensure that its limited resources were focused on al-
PROGRAM                          legations within its jurisdiction involving danger to life and safety,
INVESTIGATIONS                   criminal offenses by government employees/public officials en-
                                 trusted with Department of Labor (DOL) funds or responsibilities,
                                 and major fraud involving DOL programs. In accordance with
                                 these priorities, during the fiscal year, OI devoted just over 35
                                 percent of its investigative time to JTPA matters, nearly 25 per-
                                 cent on FECA fraud investigations, and roughly 17 percent of its
                                 time to unemployment insurance matters (interstate fictitious em-
                                 ployer/employee and third party false claims investigations). In
                                 addition, about 13 percent of Ol's time was devoted to employee
                                 integrity investigations.


                                 The rising costs of Federal Employees' Compensation Act (FECA)
OIG LEADS                        benefits ($1.756 billion in 1993) have intensified the concern of
INTER-AGENCY                     agencies throughout the Executive Branch. As a result, the Fraud
ATTACK ON                        and Abuse Subcommittee of the Joint Agency Office of Workers'
FECA FRAUD                       Compensation Task Force was established in January 1993 to
                                 investigate, prevent, detect, and eliminate FECA fraud and abuse.
                                 The Subcommittee is comprised of senior managers from the
                                 Federal investigative agencies who are responsible for FECA fraud
                                 investigations regarding their agency's employees. The OIG's
                                 Assistant Inspector General for Investigations serves as chair-
                                 man of the Subcommittee.        The OIG has actively encouraged
                                 agencies to view FECA fraud not only on a cost and fraud basis,
                                 but also as a Federal employee integrity issue. The OIG is en-
                                 deavoring to ensure that all agencies utilize their limited investi-
                                 gative resources most efficiently in conducting FECA investiga-
                                 tions. In summary, the Subcommittee goals are to: raise agency
                                 awareness of the financial impact of FECA fraud and abuse; share
                                 investigative intelligence, especially regarding medical service and
                                 equipment providers; develop model investigative approaches,
                                 standards, and reporting methods; encourage the use of civil rem-
                                 edies to recover the government's resources; and facilitate com-
                                 munications with the DOL's Office of Workers' Compensation Pro-
                                 grams (OWCP). The Subcommittee made the identification of
                                 specific FECA program cost reduction solutions and training its




                                                  29
Semiannual   Report to the Congress                                                   April 1 - September 30, 1993




                                      highest priorities. In August, the Subcommittee conducted a 4-
                                      day training session for 25 investigators representing 18 agen-
                                      cies.

FECA fraud       convicts still       Early on, the OIG and the Subcommittee realized the potential
receiving FECA benefits while         significance of amending Title 18 U.S. Code (USC) § 1920 ( false
imprisoned                            statement to obtain Federal employees' compensation), i.e., to
                                      change this offensl._,from a misdemeanor to a felony and bar pay-
                                      ment of FECA benefits to incarcerated felons and persons con-
                                      victed of FECA fraud. This proposed legislative action could re-
                                      sult in significant cost savings and enhance the deterrents to FECA
                                      fraud, without adversely affecting the thousands of legitimate FECA
                                      recipients and medical providers.


SIGNIFICANT
INVESTIGATIVE                         The following are some highlights of our most significant investi-
ACCOMPLISHMENTS                       gative results during the period:



19 Sentenced in Mexican               The OIG previously reported on third-party unemployment insur-
Border UI Investigations              ance claimant fraud investigations along the Texas/Mexico bor-
                                      der which illustrate the control problems inherent with interstate
                                      UI claims. During this reporting period, 19 defendants in the Roma,
                                      Texas, investigations were sentenced. The sentences ranged from
                                      6 to 11 months' monitored home confinement, with probation from
                                      6 months to 5 years. Some received sentences of 100 hours of
                                      community service, and restitution was ordered which totalled
                                      nearly $158,000.

                                      Some of the defendants had been charged with multiple counts of
                                      mail fraud and others were charged with conspiracy or as princi-
                                      pals for filing fraudulent UI claims with the State of California on
                                      behalf of migrant Mexican nationals. The defendants included
                                      taxi cab drivers who allegedly recruited and drove some migrants
                                      to the Texas Employment Commission office in Roma to file these
                                      fraudulent claims.

                                      Other defendants were accused of processing UI claims for mi-
                                      grant workers returning to Texas after working in California. Some
                                      defendants instructed the workers to falsely endorse UI claim forms
                                      attesting that they had actively searched for work, when in fact,
                                      they had returned to their native Mexico. These defendants re-



                                                      3o
SemiannualReportto theCongress                                                  April 1- September30,1993




                                 tained a portion of the UI proceeds as a fee and arranged to have
                                 the remainder transmitted to the workers in Mexico.

                                 This ongoing task force investigation is being conducted by the
                                 OIG, the Postal Inspection Service, the Immigration and Natural-
                                 ization Service, and the U.S. Border Patrol, with assistance from
                                 the U.S. Fish and Wildlife Service, U.S. Railroad Retirement
                                 Board's Office of Inspector General, and the U.S. Marshals Ser-
                                 vice. u.s. v. Sanchez, Jr., et al. (S.D. Texas)


Former DOL Official              On August 20, 1993, as part of a plea agreement, Robert Bostick,
Pleads Guilty to Million-        former Associate Deputy Under Secretary, Bureau of International
Dollar Conspiracy                Labor Affairs, waived indictment and pied guilty to a one-count
Scheme                           conflict of interest conspiracy criminal information.

                                 Bostick's responsibilities, according to the information, included
                                 working on the North American Free Trade Agreement (NAFTA)
                                 by assisting in the actual negotiations; developing an adjustment
                                 assistance program; managing a technical assistance program;
                                 and cooperating with Mexico to help address concerns regarding
                                 Mexican labor standards and their enforcement.

                                 The OIG investigation disclosed that Bostick used his official po-
                                 sition and his NAFTA responsibilities to arrange post-DOL em-
                                 ployment for himself in the housing industries of Mexico and Gua-
                                 temala. In addition, Bostickjoined a partnership which included a
                                 real estate developer, two financiers, a landowner, and others for
                                 the purpose of building houses for workers in Mexico. In return
                                 for using his influence and position to facilitate the goals of the
                                 partnership, and, thus the conspiracy, Bostick was to receive 10
                                 percent of the profits from the sale of over 6,000 condominium
                                 units. Had the conspiracy succeeded, Bostick would have re-
                                 ceived between $250,000 and $1 million as his share of the prof-
                                 its. Bostick resigned from his position with DOL and faces a maxi-
                                 mum sentence of 5 years' imprisonment and a fine of $250,000.
                                 U.S.v. Bostick (D. District of Columbia)




$3.7 Million Judgment            A summary judgment of $3,767,864 was granted on May6, 1993,
Against Durable Medical          against Appalachian Home Medical Rentals, Inc. (HMR), a Ken-
Equipment Company                tucky durable medical equipment company which rented oxygen
                                 concentrators to coal miners who purportedly suffered from black
                                 lung disease.


                                                    31
Semiannual Report to the Congress                                                    April 1- September 30, 1993




                                    The DOL Black Lung Program pays benefits and related medical
                                    expenses to black lung victims. HMR submitted over 1,300 in-
                                    voices to the DOL, based on false blood tests which indicated
                                    that miners needed the oxygen equipment. This was the third
                                    civil judgment against individuals associated with HMR. Previ-
                                    ously, physician Vinod Modi and company officers Larry Sligh and
                                    Douglas Fleming pied guilty to criminal charges stemming from
                                    the investigation. Modi has paid $979,000 of the judgment, Sligh
                                    has paid $580,000, and Fleming is responsible for the balance of
                                    $2,208,864. This civil proceeding culminates the legal action in
                                    this case which began with a criminal investigation approximately
                                    7 years ago. u.s.v. AppalachianHome Medical Rentals,Inc. (W.D.
                                    Virginia)


                                    The following case narratives, by program area, are representa-
                                    tive of other significant OIG investigative activities conducted dur-
                                    ing this period in support of the integrity of the programs adminis-
                                    tered by the Department.


                                    FEDERAL EMPLOYEES' COMPENSATION                 ACT (FECA)



Psychotherapist Pleads              Los Angeles, California, Psychotherapist Harvey P. Milstein en-
Guilty in FECA Fraud                tered a guilty plea on June 29, 1993, to one count of making false
Scheme                              statements relative to his FECA claim. He failed to report his
                                    income as a psychotherapist while employed by a physician, as
                                    well as his expense paid trips when he functioned as a chaperon
                                    for the television show "The Dating Game."

                                    Milstein allegedly incurred a disabling back and knee injury on
                                    January 8, 1987, when he slipped on a wet floor at the Veterans'
                                    Administration Hospital, where he was employed as a counseling
                                    psychologist.    Since then, Milstein has received in excess of
                                    $200,000 in FECA benefits. The investigation also revealed that
                                    just prior to the alleged accident Milstein purchased two insur-
                                    ance policies from which he also received benefits. Milstein was
                                    scheduled to be sentenced in October 1993. He could receive a
                                    sentence of 4 to 8 months' imprisonment and be required to pay
                                    $69,000 in restitution, u.s.v. Milstein(C.D. California)




                                                    32
Semiannual Report to the Congress                                                   April 1- September 30, 1993




Former Treasury Analyst             Billie Clem Rae, a former program analyst with the U.S. Depart-
to Serve 154 Months'                ment of Treasury's Bureau of Public Debt, in Washington, D.C.,
Imprisonment in FECA                was sentenced on July 23, 1993, to serve 154 months' imprison-
Fraud Scheme                        ment to be followed by 3 years' supervised probation, and fined
                                    $175,000.

                                    The sentence followed his March 23, 1993, conviction in a FECA
                                    fraud scheme involving attempted murder-for-hire, obstruction of
                                    justice, mail fraud, and bankruptcy fraud. This investigation, con-
                                    ducted jointly by the OIG and Federal Bureau of Investigation,
                                    revealed that Rae made false statements to the Office of Work-
                                    ers' Compensation Programs (OWCP) to conceal his employment.
                                    As a result, he fraudulently obtained over $188,000 in FECA ben-
                                    efits. In the furtherance of his scheme, Rae attempted to hire an
                                    individual to murder a key witness who provided authorities with
                                    information that Rae was not totally disabled and was in fact an
                                    officer, owner, and/or operator of four different corporations while
                                    he received FECA benefits, u.s.v. Rae(D. Districtof Columbia)



Former Defense                      On July 20, 1993, Lee R. Ball, a former construction foreman at
Employee Indicted for               the U.S. Department of Defense Depot in Richmond, Virginia, was
FECA Fraud                          indicted on charges of mail fraud and making false statements to
                                    the government in a scheme to fraudulently receive more than
                                    $135,000 in FECA benefits over a 5-year period. The indictment
                                    alleged that Ball had been gainfully employed in the firewood sales
                                    business while receiving FECA benefits.

                                    Ball has claimed that he was totally disabled and had been unem-
                                    ployed since April 10, 1987, as a result of an alleged back injury.
                                    This investigation was conducted jointly with the Defense Crimi-
                                    nal Investigative Service and the Defense General Supply Center's
                                    Office of Command Security. Ball was scheduled for trial in Octo-
                                    ber 1993. u.s.v. BalI(E.D. Virginia)



Former Postal Special               On August 3, 1993, Philip G. Arcadipane, a former U.S. Postal
Police Officer Indicted in          Service Special Police Officer, was indicted by a federal grand
FECA Fraud Plot                     jury for the District of Massachusetts and charged with 28 counts
                                    of mail fraud and 3 counts of making false statements.

                                    While collecting $59,631 in FECA funds, Arcadipane allegedly
                                    failed to report to OWCP that he was self-employed, operating a



                                                    33
SemiannualReportto the Congress                                                   April I - September 30, 1993




                                  weapon and ammunition supply company from his home. Through
                                  a series of investigative techniques, OIG developed evidence that
                                  Arcadipane's unreported activity included reloading ammunition
                                  and selling the "reloads" to various law enforcement agencies
                                  throughout Massachusetts. u.s.v. Arcadipane(D. Massachusetts)


Postal Clerk Sentenced            Following a 3-day trial, postal distribution clerk Arthur J. Smullen
to More than 2 Years'             was sentenced on May 27, 1993, to 27 months' imprisonment, 36
Imprisonment   in FECA            months' probation, and ordered to pay $121,377 restitution for
Fraud Scheme                      failing to report his employment and income to OWCP.

                                  On August 10, 19,74, whille working at the Peabody, Massachu-
                                  setts Post Office, Smullen allegedly sustained a back injury.
                                  Smullen was declared totally disabled on March 14, 1975, and
                                  received FECA disability benefits from that date forward. The
                                  OIG investigation disclosed that Smullen had been employed by
                                  Performance Cycle, Inc., a business incorporated on December
                                  22, 1988, by his wife. Additionally, he was the general manager
                                  of New England Dragway, Inc., a drag-racing track, from 1982
                                  through 1988. To conceall his income, Smullen's salary from New
                                  England Dragway., Inc. was paid to Performance Management
                                  Group, Inc., another business controlled by Smullen. u.s.v. Smullen
                                  (D. Massachusetts)




                                  JOB TRAINING PARTNERSHIP ACT (JTPA)



JTPA Conviction Upheld            On July 16, 1993, the U.S. Court of Appeals for the Fifth Circuit in
by Court of Appeals               New Orleans affirmed the conviction of William J. Long, Ph.D. for
                                  his role in embezzling and/or misapplying over $100,000 in JTPA
                                  funds. Dr. Long, wlho attempted to have his conviction overturned,
                                  claimed that because the U.S. Department of Labor disburses
                                  JTPA funds directly to the governor of the State (Louisiana) and
                                  holds the state responsible for any misspent JTPA funds, the Fed-
                                  eral Government no longer had jurisdiction over those entities
                                  contracting with the state for JTPA services, etc. The Court did
                                  not adopt Dr. Long's reasoning.

                                  Dr. Long had been the director of the Louisiana Research and
                                  Development Center which had received JTPA contracts totalling
                                  over $1 million. On July 20, 1992, Dr. Long had entered a guilty



                                                       34
Semiannual   Report to the Congress                                                     April 1 - September 30, 1993




                                      plea to theft of government funds; however, as a condition of his
                                      plea agreement, Dr. Long had reserved the right to appeal his
                                      conviction, u.s.v. Long(C.C.A.,Louisiana)



FormerAuditClerkGuilty                On September 17, 1993, Jacqueline Simeon-Richards, a former
of JTPA Embezzlement                  Virgin Islands Department of Labor general audit clerk, was sen-
                                      tenced to 10 months' imprisonment, 3 years of probation, and
                                      restitution of $71,617. Ms. Simeon-Richards had pied guilty on
                                      May 14, 1993, to a criminal information charging her with two
                                      counts of JTPA embezzlement.

                                      Between July 1991 and January 1993, Simeon-Richards used fic-
                                      titious names and social security numbers on vouchers of legiti-
                                      mate JTPA participants to issue and negotiate 171 checks total-
                                      ling $71,617 from the Virgin Islands "child care" program.

                                      This investigation was conducted jointly with the U.S. Attorney's
                                      Office, the Virgin Islands Attorney General, the Virgin Islands In-
                                      spector General's Office, and the U.S. Department of Interior's
                                      Office of Inspector General. u.s.v. Simeon-Richards (D. Virgin Islands)



                                      UNEMPLOYMENT          INSURANCE (Ul)



$300,000 Ul Scheme                    During this reporting period, co-conspirators George G. Glasser,
Exposed                               Bradley J. Masters, Dominador T. Reyes, Jr., and Kenneth W.
                                      Hicks pied guilty to their participation in a scheme to defraud the
                                      State of Indiana of over $300,000 in unemployment insurance
                                      funds. For their roles, they agreed to pay restitution totalling
                                      $38,188.

                                      Craig Druen, a former Indiana Department of Employment and
                                      Training Services (IDETS) auditor, allegedly devised the scheme
                             •        to prepare fraudulent UI claims utilizing IDETS' "Vouchers for
                                      Refund of Employment Security Contributions" and using the
                                      names of employers who had reportedly overpaid their UI contri-
                                      butions. Druen was assisted in the scheme by Scott Druen, his
                                      brother, and Candace Lynn Plummer, an associate. Craig Druen,
                                      in his official capacity, obtained the vouchers; Scott Druen and
                                      Plummer allegedly recruited 33 individuals to complete the vouch-
                                      ers, forge the required signatures, and cash the UI refund checks.



                                                       35
Semiannual Reporttothe Congress                                                   April1- September30, 1993




                                  An Indiana grand jury indicted the 36 alleged conspirators on
                                  March 30, 1993; 32 of them are awaiting trial. The Indiana State
                                  Police initiated the investigation but requested OIG's participa-
                                  tion. State of Indiana, v. Druen et al. (Indiana)


                                  OCCUPATIONAL         SAFETY AND HEALTH ADMINISTRATION
                                  (OSHA)



Former Lab Manager                On August 12, 19!;)3, in the District of Massachusetts, a super-
Indicted for Making False         seding indictment was handed down to include Testwell Craig
Statements                        Laboratories Inc., of Burlington, Massachusetts, together with
                                  George Stevenson, the former manager, charging them with ten
                                  counts of false statements.

                                  Testwell Craig Laboratories, Inc., through Stevenson, allegedly
                                  falsified test results of the respirators used by its employees dur-
                                  ing asbestos abatement and removal processes. The "fit tests"
                                  are conducted to ensure the least possible seepage of asbestos
                                  fibers into the respirator's face mask. According to OSHA, the
                                  falsified test results placecl the asbestos removal employees and
                                  consultants at significant health risk. This investigation was con-
                                  ducted by the OIG, for the U.S. Attorney's Office, with the assis-
                                  tance of OSHA. u.s.v. Stevenson(D. Massachusetts)


                                  EMPLOYEE INTEGRITY



Virginia MSHA Inspector           As a follow-up to our last report, Gerald E. Sloce, a former De-
Pleads Guilty in FECA             partment of Labor, Mine Safety and Health Administration (MSHA)
Fraud Scheme                      coal mine inspector, pied !guilty on August 19, 1993, to two counts
                                  of false claims.

                                  Sloce had received FECA benefits since claiming he suffered from
                                  stress following the June 21, 1983, investigation of the McClure
                                  Number 1 Mine, McClure, Virginia fatality, a mine site for which
                                  he had primary inspection responsibility. The OIG investigation
                                  disclosed that Sloce had received over $64,000 in FECA benefits
                                  from February 7, 1990, to December 13, 1992, while actively
                                  employed in the home remodeling, roofing, and carpentry busi-
                                  nesses, and as the minister of a small local church, none of which



                                                  36
SemiannualReport to the Congress                                                 April 1- September 30, 1993




                                   he reported to the OWCP. Sloce had been indicted on December
                                   16, 1992, by a federal grand jury in Abington, Virginia. Sentenc-
                                   ing was scheduled for October 15, 1993. Sloce faces a maximum
                                   sentence of 5 years' imprisonment and a fine of $25,000 on both
                                   counts. U.S.v. Sloce(W.D.Virginia)


Former OWCP                        As part of a plea agreement, on July 27, 1993, Ronnie Walker, a
Management     Assistant           management assistant at the Washington, D.C. Office of Work-
Pleads Guilty to                   ers' Compensation Programs, formally pied guilty to one count of
Embezzlement                       theft of government property.

                                   Walker processed fraudulent travel advance claims, forged the
                                   necessary signatures, and improperly obtained imprest funds of
                                   nearly $10,000. During the investigation, Walker resigned from
                                   his government position. Walker was scheduled to be sentenced
                                   on October 29, 1993. u.s.v. Walker(D. Districtof Columbia)




                                                   37
, SemiannualReport to the Congress                                                         April 1- September 30, 1993




                             COMPLAINT         ANALYSUS       OFFICE    ACTIVITIES




           Breakdown of Allegation Reports by Source:

                              Walk-in                                                                        2
                              Hotline calls or letters from individuals or organizations                   183
                              Other Telephone Calls                                                          0
                              Letters from Congress                                                          9
                              Letters from DOL agencies                                                      8
                              Letters from Non-DOL agencies                                                  0
                              Incident Reports from DOL agencies                                             8
                              Reports by Special Agents and Auditors                                        16
                              Referrals from GAO                                                             6

          Total                                                                                            232




           Breakdown of Allegation Reports by Referral::

                              Referred to Office of Audit                                                    3
                              Referred to Office of Labor Racketeering                                       0
                              Referred to Office of Investigations Regional Offices                         23
                              Referred to DOL program management                                            99
                              Referred to other agencies                                                    22
                              No further action required                                                     3
                              Pending disposition at end of period                                          82

          Total                                                                                            232




                                                         38
Semiannual
        Report
            totheCongress                                                                                                                April1 - September
                                                                                                                                                         30,1993




                                                  APPENDIX
                             Office of Investigations Financial Accomplishments
          1
CATEGORIES                                                                                                                                            AMOUNT

Recoveries: .............................................................................................................. $1,233,325

              (Expendituresto be recovered and/or reprogrammed. This includesthe dollar amountof
              management'scommitmentto seekrecoveriesand adjustments.This isa quantificationof
              an agency's action in responseto the Inspector General's recommendationto recover funds
              and/or to make adjustments.)

Cost Efficiencies: ......................................................................................................... 599,942

              (The one-time and/or per annum dollar amount/value or management's commitment to
              more efficiently utilize the Government's resources. This category is a quantification of
              management's action in response to the Inspector General's recommendation to prevent
              improper obligations or expenditures of agency funds or to improve agency systems and
              operations, thereby avoiding further unnecessary expenditures.)

Restitutions:       ..............................................................................................................                    1,163,810

              (The dollar amount/value of restitution ordered. This category reflects restitutions ordered
              as a result of Inspector General investigative activities.)

Fines/Penalties: ......................................................................................................... 1,204,399

              (The dollar amount/value of fines and penalties assessed. This category reflects fines and
              penalties assessed as a result of criminal and civil action instituted as a result of the In-
              spector General's investigation.)

Civil   Monetary:      ...........................................................................................................                    2,271,097

              (The dollar amount/value of settlements and judgements rendered as a result of civil ac-
              tions.)

Forfeiture/Court          Costs:        ...........................................................................................................               0

              (The dollar amount/value of forfeiture and court costs assessed as a result of criminal and
              civil action instituted as a result of the Inspector General's investigations.)

TOTAL: ..................................................................................................................... $6,472,573


  1Sourceof thesedefinitions(except"CivilMonetary"and Forfeiture/CourtCosts"): "InvestigativeCaseTrackingSystems,
   Agents'InstructionsManual",datedOctober1985.



                                                                                39
Semiannual Report to the Congress                                                   April 1- September 30, 1993




OFFnCEOF LABOR RAOKETEERBNG

..........................          . The Office of Labor Racketeering conducts criminal investigations
INVESTIGATIVE                       to eliminate the influence of organized crime, labor racketeering,
PRIORITIES                          and corruption in employee benefit plans, labor management re-
                                    lations, and unions. During this reporting period, our efforts re-
                                    sulted in 129 indictments, 58 convictions, and $49.3 million in
                                    fines and restitutions.


                                     HEALTH INSURANCE FRAUD

                                    For the past four years, the Office of Labor Racketeering has been
                                    at the leading edge of the investigation of fraudulent health insur-
                                    ance scams. While other federal agencies have focused efforts
                                    on "provider" fraud, i.e. doctors, hospitals, clinics, laboratories,
                                    whose victims are often insurance companies or the government,
                                    OLR has focused on the fraudulent activities of dishonest opera-
Multiple Employer                   tors on the insurance side of the business. With a particular era-
Welfare Arrangements                phasis on Multiple Employer Welfare Arrangements (MEWAs),
(MEWAs)                             OLR has been a significant force in bringing about fundamental
                                    change in this entire segrnent of the industry.

                                    OLR's initial investigative thrust into this area came about as a
                                    response to pleas from various state insurance commissioners
                                    for help in dealing with fraud schemes that were successfully hid-
                                    ing from state regulation under the umbrella of the Employee
                                    Retirement Income Security Act, generally referred to as ERISA.
                                    A key ERISA provision states that the Act preempts all state laws
                                    and regulations that apply to employee benefit plans. This pre-
                                    emption feature allows entities that do business in several states
                                    to function under a single set of regulations, rather than having to
                                    address different regulations in each individual state.

                                    As the cost of health insurance soared during the late 1980's,
                                    alternative methods of providing affordable health coverage
                                    emerged. One of them was the multiple employer welfare ar-
                                    rangement, or ME-WA. The MEWA is neither an insurance com-
                                    pany, nor, in nearly all cases, is it an employee benefit plan as
                                    defined by ERISA. Consequently, MEWAs function in a "crease"
                                    in the regulatory defense, effectively regulated by neither state
                                    nor federal authorities.



                                                     4o
Semiannual Reportto the Congress                                                    April 1 - September 30, 1993




                                   Predictably, some larcenous individuals exploited this situation
                                   by setting up fraudulent operations that generated enormous rev-
                                   enues. In the process, they left thousands of victims with millions
                                   of dollars in unpaid medical bills.

                                   At the urging of several state insurance departments, OLR under-
                                   took criminal investigations of some of the more egregious of these
                                   frauds. Working, since 1990, with state investigators, and repre-
                                   sentatives of a variety of federal agencies including Labor's Pen-
                                   sion and Welfare Benefits Administration, the Postal Inspection
                                   Service, and the Federal Bureau of Investigation, OLR has brought
                                   to a successful conclusion 17 cases resulting in 55 indictments,
                                   42 convictions, and fines and restitutions ordered totalling in ex-
                                   cess of $52,300,000.

                                   The subject entities in these 17 cases left an estimated 127,600
                                   victims (found in every state except Idaho and Hawaii), with an
                                   estimated $110,407,000 in unpaid medical bills.

                                   OLR's investigative efforts and the publicity generated by the re-
                                   sulting criminal court actions galvanized both the state and fed-
                                   eral regulatory community and the segment of the employee ben-
                                   efit industry dealing with "self insured" programs. During the last
                                   session of Congress, hearings were held by several committees
                                   on this issue, and four bills specifically addressing the regulation
                                   of MEWAs were introduced. In this current session of Congress,
                                   one bill addressing MEWAs has been introduced. This bill incor-
                                   porates many aspects of the bills from the previous session. In
                                   addition, a large number of states have also enacted legislation
                                   specifically targeted at the regulation of MEWAs and similar
                                   schemes within their own borders. The industry itself has recog-
                                   nized the danger of allowing shady operators to go unchallenged,
                                   and a self-policing frame of mind has resulted in a much greater
                                   flow of information to support regulatory and investigative efforts.

                                   The combined effect of greatly enhanced regulatory attention,
                                   better legislative tools, effective publicity, and a heightened intol-
                                   erance for dishonesty within the industry has driven many scam
                                   artists into other areas.

                                   In summary, the MEWA "problem" has been successfully ad-
                                   dressed by OLR and a number of positive and significant changes
                                   have resulted. While criminals will continue to find ways to ma-



                                                    41
Semiannual Report to the Congress                                                   April 1 - September 30, 1993




                                    nipulate the system to their benefit, and OLR will continue to work
                                    to thwart them, the impact of our work in this area demonstrates
                                    that aggressive law enforcement can bring about systemic changes
                                    which enhance the overall security of the American worker.

Bogus Labor Unions                  Because ERISA clearly exempts benefit plans established by la-
Pose New Threat                     bor organizations <"Taft-Hartley" plans) from state regulation, some
                                    operators fleeing the enhanced scrutiny given MEWAs have turned
                                    to bogus unions for refuge. OLR investigations have revealed
                                    that often these "unions" are in fact, fraudulent and/or bogus
                                    unions. Consequently, OLR has shifted its focus from MEWA
                                    fraud to the increasing number of health insurance schemes that
                                    are being marketed as if they were sponsored by labor unions.

                                    Under the proposed Health Care Reform plan, Taft-Hartley plans
                                    will be given the option to form corporate health alliances. It re-
                                    mains to be seen how the reform plan will be implemented, but it
                                    appears it will become increasingly important to the success of
                                    health care reform that fraudulent labor unions be promptly iden-
                                    tified and, where appropriate, the operators prosecuted.     OLR
                                    already has several pending criminal investigations in this area,
                                    and has intervened in one instance to actually prevent the fraud
                                    from taking place. We anticipate enhanced investigative effort in
                                    this area over the next several years.


SIGNIFICANT                         The following are some of our most significant investigative            re-
INVESTIGATIVE                       suits during this period
ACCOMPLISHMENTS


                                    EMPLOYEE BENEFIT PLANS



Contractors Indicted for            Three individuals and three companies associated with one of
Defrauding Painters'                New York City's largest painting contractors were indicted on Sep-
Unions' Benefit Funds of            tember 22, 1993, on charges of defrauding the employee benefit
$11 Million                         funds of New York City and Long Island Painters unions.

                                    Michael Borack, owner of Leeds Painting and Decoration (Leeds);
                                    his father Sol Borack, the owner of Dosa Contractors, Inc. (Dosa);
                                    and Leeds foreman Daniel Rech were charged with conspiracy,
                                    mail fraud, false statements in documents required under the



                                                    42
SemiannualReporttothe Congress                                                   April1 - September30, 1993




                                 Employee Retirement Income Security Act, and embezzlement
                                 from an employee benefit plan. Leeds and Dosa maintained col-
                                 lective bargaining agreements with the International Brotherhood
                                 of Painters and Allied Trades, New York City-based District Council
                                 9, and Long Island-based Local 1486. These arrangements re-
                                 quired that the employee benefit plan contributions be made on
                                 all work performed by the companies. This included work com-
                                 pleted by their own employees, and for all work that was subcon-
                                 tracted. The painting companies also were charged in the indict-
                                 ment with paying bribes to union officials.

                                 The indictment alleged that during the period 1982 to 1992, the
                                 defendants participated in a scheme to defraud the District Coun-
                                 cil 9 and Local 1486 benefit funds by submitting false documents
                                 to the funds which understated the contributions required. These
                                 reports failed to disclose wages paid to workers through an affili-
                                 ated non-union company, Roma Painting Company, and through
                                 subcontractors, in violation of union collective bargaining agree-
                                 ments. Through this scheme, Leeds and Dosa avoided the pay-
                                 ment of more than $11 million in required contributions to the IBPAT
                                 benefit funds.

                                 Rech is also under indictment by another Brooklyn federal grand
                                 jury on charges relating to the alleged corruption and control by
                                 organized crime associates of the Painters union.

                                 This investigation was conducted jointly by the OIG, the New York
                                 County District Attorney's Office, the Internal Revenue Service,
                                 and the Federal Bureau of Investigation. u.s.v. Borack,et al. (E.D.
                                 New York)




Garment Factory                  Antonio Panepinto and Peter Nanfria, contractors with ownership
Contractors Guilty of            interest in three garment factories, pied guilty on May 21, 1993, to
Embezzlement and Bribery         stealing more than $1 million from the International Ladies Gar-
                                 ment Workers Union (ILGWU) benefit funds. The three clothing
                                 factories, Bivona Coat and Suit (Bivona), RO-IG Coat and Suit
                                 (RO-IG), and Valentino Via Venetto (Valentino) are located in the
                                 Brooklyn area.

                                 Panepinto pied guilty to embezzling and converting to his own
                                 use more than $1 million owed to ILGWU benefit funds. Nanfria
                                 pied guilty to bribing a union official.



                                                  43
Semiannual Reportto the Congress                                                   April 1- September 30, 1993




                                   Panepinto and Nanfria created RO-IG to divert money paid for
                                   work done for non-union manufacturers. From 1988 through 1992,
                                   over $4 million was diverted through RO-IG, defrauding ILGWU
                                   benefit funds of more than $1 million.

                                   Panepinto's contract with the ILGWU required him to make pay-
                                   ments to benefit funds on behalf of the employees at Bivona and
                                   Valentino for work performed for manufacturers not associated
                                   with the union.

                                   To avoid interference from the union, Nanfria provided no-show
                                   jobs for two sons of ILGWU business agent James Gurrieri.
                                   Gurrieri pied guilty to conspiracy to steal from the ILGWU welfare
                                   funds and conspiracy to steal New York State unemployment funds.
                                   As no-show employees, Gurrieri's sons pied guilty to misdemeanor
                                   charges.

                                   This investigation was ,conducted jointly by the OIG, the U.S.
                                   Attorney's Office, Eastern District of New York, and the U.S. Postal
                                   Inspection Service. u.s.v. Panepinto and Nanfria (E.D. New York)



Sentences in Massive               On April 22, 199:3, the former chief trustee of a defunct Florida
Health Benefit Fraud               health benefit trust fund was sentenced to 80 months in prison.
Scheme                             George V. Doherty, former trustee of the now-defunct International
                                   Forum of Florida Health Benefit Trust (IFFHBT), was sentenced
                                   for fraudulently collecting more than $34 million in health care
                                   premiums. On June 16, John Gazitua, a former consultant to
                                   IFFHBT was sentenced to eight years imprisonment and ordered
                                   to pay restitution for his involvement in the fraudulent operation.
                                   This scheme left more than 40,000 Americans with more than
                                   $50 million in unpaid medical claims. In addition, both were or-
                                   dered to pay $34 million in restitution. Doherty and Gazitua ad-
                                   mitted that they I:)articipated in a scheme to defraud health care
                                   participants by creating numerous fictitious corporations. These
                                   corporations posed as legitimate service providers to IFFHBT but
                                   were used instead to funnel millions of dollars in IFFHBT funds to
                                   Doherty and others. Doherty also admitted that he mailed false
                                   information to the State of Florida and to policy holders in the
                                   solicitation of health insurance business.

                                   In addition to Doherty and Gazitua, two IFFHBT service providers
                                   were sentenced. April Marie McGlawn, an IFFHBT service pro-



                                                   44
   SemiannualReporttothe Congress                                                   April1 - September30, 1993




                                    vider, pied guilty to conspiring with Doherty to defraud the trust
                                    through embezzlements, kickbacks, and money laundering. She
                                    was sentenced to 6 months of house arrest, and was ordered to
                                    pay $111,795 in restitution. Another IFFHBT service provider,
                                    Robert L. Searle, pied guilty to aiding in the preparation of a false
                                    corporate tax return and was sentenced to 2 years in prison and
                                    was ordered to pay $163,000 in restitution.

                                    This investigation was conducted jointly by the OIG, the Internal
                                    Revenue Service, and the Department's Pension and Welfare
                                    Benefits Administration. u.s. v. Gazitua,et. a/. (M.D.Florida)



_: Three Found Guilty in            A Washington State insurance consulting firm executive and two
   Washington State Health          associates were found guilty on May 28, 1993, of cheating thou-
   Insurance Fraud Scheme           sands of Americans out of over $6 million in premiums paid for
                                    health insurance that was never provided. Edward B. Gailup, the
                                    former president of Labor Management Services, Inc., and asso-
                                    ciates Patrick W. Lyon and Thomas M. O'Brien were found guilty
                                    of mail fraud, wire fraud, and money laundering. The scheme
                                    sold fraudulent insurance plans to individuals and associations
                                    located in Washington, Oregon, Montana, and Texas. The now
                                    defunct employee benefit plan left thousands of participants with
                                    over $8 million in unpaid medical claims.

                                    The investigation was conducted jointly by the OIG, the Postal
                                    Inspection Service, and the Internal Revenue Service. Substan-
                                    tial assistance was provided during the investigation by the Wash-
                                    ington State Insurance Commissioner's Office. u.s.v. Gallup,et. al.
                                    (W. D. Washington   State)




   Utica Teamsters Benefit          Carmen Russo, Jr., a former member of International Brotherhood
   Funds Participants Guilty        of Teamsters (IBT) Local 182 in Utica, New York, and his sister,
   of Embezzlement                  Marie Andrews, pied guilty on July 21, 1993, to separate but re-
   Conspiracy                       lated criminal informations which charged them with conspiracy
                                    to embezzle fund assets of $50,903.15 and $48,085.37, respec-
                                    tively.

                                    Josephine Russo, the Fund's former assistant administrator and
                                    mother of the defendants, pied guilty on February 18, 1993, to
                                    embezzling $138,093. Josephine Russo, in her plea, admitted
                                    she conspired with her son and daughter to submit false medical



                                                        45
SemiannualReport to the Congress                                                    April 1- September 30, 1993




                                   and dental claims to the fund and used the proceeds from the
                                   false claims for their personal use. The defendants used a vari-
                                   ety of means to carry out the embezzlements, including the sub-
                                   mission of claims for periods of time where the participants were
                                   ineligible for services, submission of totally fraudulent claims, and
                                   the submission of duplicate claims for the same services.

                                   This investigation was conducted jointly by the OIG and the Fed-
                                   eral Bureau of Investigation. u.s.v. Russo and Andrews (N.D. New
                                   York)



New Corruption Charges             Frank Priore, mayor of the Township of Parsippany-Troy Hills,
Against New Jersey Mayor           Donald Mueller, township employee, and Robert Armento, an of-
and Township Official              ricer of Omega Network Systems, Inc., were named defendants in
                                   the July 1, 1993, superseding indictment on new corruption
                                   charges, including bribery and obstruction of justice.

                                   The December 1992 indictment alleged that during the period
                                   August 1988 to February 1992, Priore, Mueller, and Armento con-
                                   spired to embezzle township funds by having Omega fraudulently
                                   pay dental claims of Priore, his girlfriend, daughter, and Mueller,
                                   and to override the plan's benefit schedules and rules to pay ex-
                                   cess benefits to Priore's daughter and to Mueller.

                                   The superseding indictment charged Priore, Mueller, and Armento
                                   with bribery and extortion of approximately $5,102 in Parsippany
                                   funds by demanding payment through a dental claims scheme.
                                   Priore and Mueller are also charged with conspiracy to extort free
                                   rooms from the -I-ara Hotel, Parsippany, N. J., in exchange for
                                   Priore's assistance in approving directional signs advertising the
                                   hotel.

                                   Additionally, Priore and Mueller are charged with obstructing the
                                   grand jury's investigation into the dental scheme by meeting with
                                   witnesses. Priore is also charged with obstructing the grand jury's
                                   investigation of the hotel scheme by withholding subpoenaed
                                   documents from the grand jury.

                                   Two Parsippany employees, Edward Hass and Paul Kuehner, pied
                                   guilty to charges they provided false testimony to the grand jury in
                                   connection with the dental scheme.




                                                    46
                                                      /
SemiannualReport to the Congress                                                   April 1 - September 30, 1993




                                   These charges are an outgrowth of the OIG's two-year investiga-
                                   tion of Omega. To date, the investigation has resulted in guilty
                                   pleas to criminal charges by Omega officials Nicholas Carrara,
                                   president; Timothy Walsh, vice-president; and Kenneth Mullins,
                                   controller, regarding theft of municipal funds and kickbacks to union
                                   officials. Salvatore Zingone, former president of Teamsters Local
                                   723, Montville, New Jersey, was also convicted in this investiga-
                                   tion for demanding $36,000 in kickbacks from Omega. u.s.v. Priore,
                                   et al. (D. NewJersey)



Former Painters' Union             Edward Capaldo, former president of International Brotherhood
Official Pleads Guilty to          of Painters and Allied Trades (IBPAT) Local Union 1486 in New
Racketeering and                   York, pied guilty on September 22, 1993, to racketeering (RICO)
Conspiracy                         conspiracy and conspiracy to defraud the Internal Revenue Ser-
                                   vice.

                                   Capaldo engaged in racketeering extortion, labor payoffs, and
                                   money laundering in furtherance of a bid rigging scheme to con-
                                   trol lucrative structural steel painting contracts in the New York
                                   metropolitan area.

                                   An October 1992 indictment filed against Capaldo and eight oth-
                                   ers alleged that, between 1978 and 1990, the New York metro-
                                   politan painting industry was dominated by a criminal enterprise
                                   ruled by the Lucchese organized crime family. The criminal en-
                                   terprise controlled the awarding and performance of painting con-
                                   tracts for structural steel, such as those awarded by the New York
                                   City Metropolitan Transit Authority, through bid-rigging, illegal la-
                                   bor payoffs, and extortion. This activity netted over $4 million in
                                   kickbacks to Capaldo and the other defendants.

                                   This investigation was conducted jointly by the OIG, the New York
                                   County District Attorney's Office, the Federal Bureau of Investi-
                                   gation, the Internal Revenue Service, and the New York City Po-
                                   lice Department. Assistance was also provided by the New York
                                   Metropolitan Transportation Authority. u.S.v. Capaldo(E.D.NewYork)




                                                   47
Semiannual Report to the Congress                                                   April 1 - September 30, 1993




                                    LABOR-MANAGEMENT           RELATIONS



Minority Coalitions                 Eight construction worker coalitions and 31 coalition supervisors
Indicted for Conspiracy,            or leaders were charged on June 29, 1993, with a scheme by
Extortion                           which the minority worker coalitions extorted money, jobs, and
                                    contracts for security and other services from construction com-
                                    panies operating in the City of New York. These groups were
                                    created to increase minority employment in the construction in-
                                    dustry.

                                    The coalitions charged were: United Brooklyn Construction Work-
                                    ers Coalition; United New York Construction Workers; United His-
                                    panic Construction Workers; Black and Latin Economic Survival;
                                    New Alliance; United Construction Workers Coalition; Hispanic
                                    and Black Coalition; and Black Power. These groups falsely rep-
                                    resented themselves as working to increase minority employment
                                    opportunities but instead transported their members to construc-
                                    tion sites throughout the city to stop work through violence or
                                    threatened violence. The coalition leaders demanded that:

                                    o   the contractors hire one of the coalition leaders or a person
                                        whom they designated as an unneeded and unwanted "coor-
                                        dinator," equal employment opportunity officer, or labor con-
                                        sultant and who, regardless of whether he performed any la-
                                        bor or services, would be paid a regular amount in exchange
                                        for protection from coalition interference with the contractors
                                        work;

                                    o   hire one of the coalition leaders or an individual or company
                                        associated with or controlled by one of the coalition leaders or
                                        supervisors to provide security or perform other work on a given
                                        construction project;

                                    •   hire and/or maintain workers selected by the coalition regard-
                                        less of the labor requirements of the contractors and without
                                        regard to whether a particular contractor employed substan-
                                        tial numbers of minorities or an entirely minority work force;
                                        and

                                    •   the contractors makE;cash payoffs to the coalition leaders and/
                                        or supervisors.




                                                    48
SemiannualReport to the Congress                                                   April 1 - September30, 1993




                                   This three-year investigation was conducted jointly by the OIG,
                                   the New York City Police Department, and the Federal Bureau of
                                   Investigation. u.s. v. BlackandLatin EconomicSurvival,et al. (E.D.New
                                   York)



Present and Former                 Officials of New York City-based Local 282 of the International
Officials of N.Y. Teamsters        Brotherhood of Teamsters (IBT) were indicted on July 1, 1993, on
Local Indicted                     racketeering charges. The charges relate to the Gambino crime
                                   family's control over Local 282, and influence over the construc-
                                   tion industry in New York.

                                   The defendants are: Michael Bourgal, president; John Probeyahn,
                                   secretary-treasurer; Robert Sasso, former president who resigned
                                   in 1992; Michael Carbone, former Local 282 secretary-treasurer
                                   who resigned in late 1991; and, Joseph Matarazzo, former busi-
                                   ness agent who retired in 1989.

                                   The indictment charged the defendants with violation of the fed-
                                   eral racketeering statute and extorting and accepting money from
                                   numerous employers involved in the construction industry between
                                   the late 1970's and 1991. The indictment alleged that during that
                                   time period, a corrupt relationship existed between high level of-
                                   ficials of Local 282 and the Gambino family of La Cosa Nostra.
                                   This relationship included the following activities:

                                   •   the Gambino family collected money from companies to re-
                                       solve disputes with Local 282;

                                   •   members and associates of the Gambino family were appointed
                                       to the lucrative position of working Teamster foremen on con-
                                       struction sites with little or no construction experience. These
                                       positions were used to extort money from construction com-
                                       panies by threatening to delay the delivery of materials;

                                   °   construction companies paid money to Local 282 business
                                       agents to avoid hiring working Teamster foremen. These ille-
                                       gal payments were then shared by the Gambino family and
                                       Local 282 officials; and,

                                   °   Local 282 business agents took money in exchange for per-
                                       mitting companies to avoid signing collective bargaining agree-
                                       ments with Local 282.



                                                    49
Semiannual Report to the Congress                                                  April 1 - September 30, 1993




                                    John Gotti and Sammy ,("the Bull") Gravano, formerly the boss
                                    and underboss of the Gambino Crime Family respectively, are
                                    named as unindicted co-conspirators in the indictment.

                                    This continuing investigation is being conducted jointly by the OIG
                                    and the Federal Bureau of Investigation. Assistance has been
                                    provided by the New York State Organized Crime Task Force,
                                    Nassau County District Attorney's Office, and the New York State
                                    Attorney General's Office for Medicaid Fraud Control. u.s.v. Bourgal
                                    et al. (E.D.NewYork',)



New Jersey Textile                  Joseph LaBarck, Sr., president, and Raymond LaBarck, vice-presi-
Workers'   Union Officials          dent, of the Amalgamated Clothing and Textile Workers Union of
Indicted for Labor                  America (ACTWU) were arrested on June 28, 1993, by special
Racketeering                        agents of the OIG on charges of racketeering in connection with
                                    their operation of the union.

                                    The indictment, which was unsealed after the arrests, charged
                                    the LaBarcks with conspiracy, racketeering, extortion, demand-
                                    ing illegal payments from employers, embezzlement from an em-
                                    ployee benefit plan, and embezzlement from a labor organiza-
                                    tion.

                                    The indictment charged that from 1985 to the present, Joseph
                                    LaBarck, Sr. and Raymond LaBarck conducted the affairs of
                                    ACTWU Local 1733 through a pattern of racketeering activity in-
                                    cluding:

                                    o demanding and receiving approximately $500,000 in cash from
                                      employers of members of Local 1733 to avoid unfavorable
                                      contract agreements and purchase labor peace;

                                    o demanding that certain Local 1733 employers hire and retain
                                      sons, step-sons, and sons-in-law to ensure labor peace and
                                      avoid economic sanctions;

                                    °   demanding that certain Local 1733 employers defray the cost
                                        of health insurance premiums for various LaBarck relatives
                                        seeking coverage in the Textile Dyers and Printers Insurance
                                        Trust;




                                                    5o
SemiannualReport to the Congress                                                    April 1 - September 30, 1993




                                   •   embezzling, with others, about $25,000 from the Local 1733
                                       general operating account, which reflected the repayment of
                                       premiums that were never paid to the Local 1733 welfare fund;

                                   •   embezzling, with others, approximately $30,000 from the Lo-
                                       cal 1733 welfare fund by submitting claims for payment on
                                       behalf of ineligible LaBarck family members;

                                   •   making and condoning threats and acts of violence against
                                       Local 1733 employers, their employees and independent truck-
                                       ing company owners who hauled textiles for the employers.

                                   The indictment also charged that Joseph LaBarck, Sr. induced,
                                   through extortion, certain Local 1733 employers to use LB Truck-
                                   ing Inc., a company in which he had a substantial personal and
                                   monetary interest, u.s.v. LaBarckand LaBarck(D. NewJersey)


Longshorernen's  Local             Willie E. Sloan, president of Wilmington, North Carolina-based
Union President Arrested           International Longshoremen's Association (ILA) Local 1426, was
on Corruption Charges              arrested on April 15, 1993, by special agents of the OIG and the
                                   Federal Bureau of Investigation. The arrest follows Sloan's in-
                                   dictment on April 13, 1993, for illegally receiving things of value
                                   from an employer, theft from a union, and mail fraud charges.

                                    The indictment alleged that Sloan accepted prohibited payments
                                    of$114,850 from Sea Gal Express, Inc. and Baltic American Lines,
                                    two corporations which transported containerized cargo into and
                                    out of the Port of Wilmington, North Carolina, and who employed
                                    members of ILA Local 1426. The payments were made for truck-
                                   ing services provided to the two corporations by a non-union truck-
                                    ing company owned by Sloan. Provisions of the ILA international
                                    constitution prohibit Sloan from engaging in a business relation-
                                    ship with an employer whose employees are represented by ILA.
                                    The indictment also alleged that Sloan embezzled $16,700.35
                                    from Local 1426 by taking vacation pay to which he was not en-
                                    titled, using union funds to pay for the travel of friends, and pur-
                                    chasing unauthorized items with union funds. Additionally, Sloan
                                    was charged with using the U.S. Mails to defraud the union mem-
                                    bership of their right to his honest and faithful services by threat-
                                    ening them with loss of work, rewarding loyal union members with
                                    work in disregard of Local 1426 work rules, making unauthorized



                                                    51
SemiannualReportto the Congress                                                   April 1- September 30, 1993




                                  payments to his supporters, and improperly inducting union mem-
                                  bers into the union to perpetuate his control of Local 1426. This
                                  investigation was conducted jointly by the OIG and the Federal
                                  Bureau of Investigation. u.s.v. Sloan(E.D. North Carolina)


Union Local President             Louis Varricchio, president of International Operating Engineers
Indicted for Receiving            (IUOE) Local 137, was indicted on April 14, 1993, on charges of
Illegal Payments and              receiving illegal payments from an employer, conspiracy, and tam-
Conspiracy                        pering with a witness.

                                  The indictment charged that Varricchio, while employed as a busi-
                                  ness agent for Local 2137, conspired to and accepted free labor
                                  and repair work for his car from Briar Contracting Corporation
                                  (Briar), an employer of Local 137 members. The indictment fur-
                                  ther charged Varricchio conspired to and received from Briar the
                                  use of construction machinery and labor at no cost when Varricchio
                                  was building his home in Garrison, New York. The benefits re-
                                  ceived by Varricchio exceeded $10,000. Varricchio was also
                                  charged with corruptly attempting to influence a witness' testi-
                                  mony before an official proceeding. This continuing investigation
                                  is being conducted jointly by the OIG, the Federal Bureau of In-
                                  vestigation, and the Internal Revenue Service. u.s.v. Varricchio
                                  (S.D.NewYork)


                                  INTERNAL UNION AFFAIRS



Former Union Officials            Sixteen former officials of two maritime unions were indicted on
Charged with Embezzling           June 30, 1993, on charges of embezzling about $2 million in union
Union Funds and Rigging           funds and rigging union elections. The defendants are former
Union Elections                   officials of District No. 1-Pacific Coast Division of the Marine En-
                                  gineers Beneficial Association (PCD-MEBA) and District No. 1-
                                  Marine Engineers, Beneficial Association/National Maritime Union
                                  (MEBA/NMU). Charges include theft of union funds, racketeer-
                                  ing, extortion, and mail fraud.

                                  The defendants    include former MEBA/NMU        Union officials C.
                                  Eugene Defries, president, Panama City, Florida; Clyde Dodson,
                                  executive vice-president, Garden Grove, California; Reinhold
                                  Schamann, vice-president, Brick, New Jersey; Claude W. Daulley,
                                  licensed division director, Houston, Texas; and Donald Masingo,
                                  branch agent, Chesapeake, Virginia.


                                                   52
SemiannualReporttothe Congress                                                    April1 - September30, 1993




                                 All five were charged with embezzling about $2 million in union
                                 funds related to 1988 severance payments not fully disclosed to
                                 union members. Karl M. Landgrebe of Seattle, Washington, a
                                 former division director, also was charged with embezzlement.
                                 Alexander Cullison, a branch agent of Fairfax, Virginia, was
                                 charged with racketeering.

                                 The indictment alleged that union leaders carried out election fraud
                                 by soliciting ballots from union members and then voting the bal-
                                 lots for themselves. The fraud also included opening and dis-
                                 carding legitimate ballots and replacing them with improperly ob-
                                 tained duplicates. Ballots were obtained from union members
                                 through fear of economic harm. These offenses occurred from
                                 1984 to 1991.

                                 The indictment also charged other former lower-level union offi-
                                 cials with mail fraud in the election scheme. Under federal rack-
                                 eteering laws, the government is seeking return of the embezzled
                                 funds and salaries. This investigation was conducted jointly by
                                 the OIG, the Federal Bureau of Investigation in conjunction with
                                 the Organized Crime and Racketeering Section of the Depart-
                                 ment of Justice Criminal Division. u.s.v. Defrieset al. (D. Districtof
                                 Columbia)


                                 OTHER UNION INVESTIGATIONS



Company Owners and               Edward Doyle, the owner of American Labor News, Inc.; Marie
Solicitors for Bogus             Doyle, his wife who was also supervisor of advertising solicitors;
Teamster Newspaper               executive director Wayne Stratford; and five advertising solicitors
Indicted in Advertisement        were charged with conspiracy to commit wire fraud. Edward Doyle
Sales Scam                       was also charged with using counterfeit trademarks that were reg-
                                 istered to the International Brotherhood of Teamsters (IBT). The
                                 indictment charged that the defendants used coercion and mis-
                                 leading tactics in the sale of advertising in two publications pur-
                                 portedly affiliated with the IBT.

                                 The indictment alleged that, in order to sell advertisements, the
                                 defendants engaged in a conspiracy to create the false impres-
                                 sion that they were union officials or had special influence with
                                 the IBT. They also created the false impression that if the adver-
                                 tiser failed to place an advertisement, the advertiser's business



                                                  53
SemiannualReport to the Congress                                                    April 1- September 30, 1993




                                   might be adversely affected. The indictment further charged that
                                   Doyle's company did not have an agreement with the IBT to pub-
                                   lish The American Labor News or The Teamster, two publications
                                   purportedly affiliated with the IBT, and did not have permission to
                                   use the IBT name or trademark.

                                   Over 200 corporations and businesses were victimized for over
                                   $500,000 in the solicitation of advertising for the two publications.
                                   Included among the victimized companies was 20th Century Fox,
                                   which paid $44,500 for their advertisements for the motion pic-
                                   ture "Hoffa," a film about: the late leader of the IBT. u.s.v. Doyleet
                                   al. (D. NewJersey)




                                                   54
Semiannual Reportto the Congress                                                     April1- September30, 1993




EXECUTIVE DIRECTION AND MANAGEMENT

                                   The Office of Resource Management and Legislative Assessment
OFFICE OF RESOURCE                 (ORMLA) supports the OIG by fulfilling        several responsibilities
MANAGEMENT AND                     mandated by the Inspector General Act        of 1978, including legis-
LEGISLATIVE                        lative and regulatory review, reporting to   the Congress, and other
ASSESSMENT                         support activities to achieve the mission     of the OIG.


                                   Legislative and Regulatory Assessment and Review


                                   Section 4(a) of the Inspector General Act of 1978 requires the
                                   Inspector General to review existing and proposed regulations
                                   and to make recommendations in the semiannual report, on the
                                   impact on the economy and efficiency of the administration of the
                                   Department's programs and on the prevention of fraud and abuse.
                                   In carrying out its responsibilities under Section 4(a) of the In-
                                   spector General Act, the OIG reviewed and cleared, or provided
                                   comments on, 633 legislative and regulatory items during this re-
                                   porting period.

                                   This following section discusses those issues on which the OIG
                                   urges congressional or departmental action, as well as those
                                   measures currently being considered by the 103rd Congress and
                                   which are of special interest of the OIG.


                                   Issues Requiring Congressional or Departmental Action



The Targeted Jobs                  The Congress amended the Trade Act of 1974 to create the Tar-
Tax Credit Program                 geted Jobs Tax Credit (TJTC) Program. It was the intent of the
                                   Congress that the TJTC program would offer a tax incentive to
                                   employers to stimulate the employment of individuals of specific
                                   target groups. However, recent OIG audit findings (discussed in
                                   the Office of Audit section of this report) suggest that the TJTC
                                   program is not working as the Congress had intended. This re-
                                   port suggests that, in its present form, the TJTC program prima-
                                   rily served as a tax windfall to participating employers and that it
                                   is of limited value to program enrollees.




                                                   55
SemiannualReport to the Congress                                                    April 1 - September 30, 1993




                                   The audit found that employers who are using the targeted jobs
                                   tax credits are often nationwide corporations that provide low-
                                   skilled, low-paying, entnry-level positions in which there is very
                                   high turnover. As a result, it is unnecessary for these employers
                                   to make any special efforts to hire targeted individuals since the
                                   applicant pool for these; types of jobs already includes a large
                                   proportion of individuals from the various target groups. Employ-
                                   ers interviewed during the audit admitted that they would have
                                   hired 95 percent of the same participants -- even without the ben-
                                   efit of the targeted jobs tax credit. In fact, employers.typically
                                   agreed to hire applicants before a preliminary eligibility determi-
                                   nation was made. These results and others in the report led the
                                   OIG to conclude that the TJTC program is not serving its intended
                                   purpose. The IRS estimates that, from 1980 to 1990, the esti-
                                   mated revenue Ilosses from TJTC credits totaled $4.5 billion.
                                   Currently, this program is costing almost $300 million a year. The
                                   Joint Committee on Taxation estimates that, by 1998, this figure
                                   will increase to $,444 million per year.

                                   The Congress recently extended the TJTC program until Decem-
                                   ber 31, 1994. As a result of our initial audit findings, the OIG
                                   began a nationwiide audit of the TJTC program.      In the interim,
                                   the OIG strongly urges that the Department and the Congress
                                   evaluate whether the TJTC program is meeting its objectives and
                                   determine whether it should be discontinued or sharply redirected
                                   to serve those that may not otherwise be hired.



Pension Plan Audit                 Since 1984, through Semiannual Reports and Congressional tes-
and Enforcement                    timony, the OIG has raised its concern that hundreds of billions of
Amendments                         dollars in employee pension funds are not being adequately safe-
                                   guarded by annual audits. In 1989, the OIG issued an audit re-
                                   port recommending the repeal of the limited scope audit provision
                                   of the Employee Retirement Income Security Act (ERISA) of 1974,
                                   which allows funds held in federally regulated entities to escape
                                   scrutiny. Currently, ERISA does not require audits of plan assets
                                   that have been invested in entities such as savings and loans,
                                   associations, banks, and insurance companies, which are regu-
                                   lated by Federal or State Governments. While the Congress in-
                                   tended to reduce duplication of auditing effort by limiting the scope
                                   of the audits, this exemption has created a dangerous loophole
                                   that needlessly risks the assets of pension plan beneficiaries.




                                                   56
Semiannual Report to the Congress                                                   April 1- September 30, 1993




                                    Although, it has been assumed that these "exempted" institutions
                                    have been receiving adequate audit coverage from the other regu-
                                    latory agencies, in general, these audits are only performed ev-
                                    ery two years, and are not primarily designed to test for ERISA
                                    violations. As a result, this limited scope audit exemption may be
                                    placing at risk a significant portion of the more than $2 trillion
                                    dollars in pension fund assets. Moreover, this exemption places
                                    at risk the Government's assets -- a risk which ultimately must be
                                    borne by the American taxpayer-- because the Government guar-
                                    antees the payment of pension benefits for defined benefit plans.

                                    After almost 5 years (a period covering 10 semiannual reports),
                                    the OIG is troubled that no legislative remedy to address this rec-
                                    ommendation has been enacted. While the OIG is encouraged
                                    by the Department's efforts to complete its draft bill, we are con-
                                    cerned that it continues to remain in the Department and has not
                                    been forwarded to the Congress.



Occupational Safety and             In its calendar year 1994 legislative program, the OIG recom-
Health Act Enforcement              mended that the Department request legislation to amend the
Reform                              Occupational Safety and Health Act (OSH Act) to raise the pen-
                                    alty for the repeated or willful violation of an Occupational Safety
                                    and Health Administration (OSHA) rule that results in death or
                                    serious bodily injury to workers, from a misdemeanor to a felony.
                                    Currently, under the OSH Act, a willful violation of an OSHA rule
                                    causing the death of a worker is considered a misdemeanor and
                                    subject to a maximum fine not to exceed $10,000 or six months in
                                    prison. Repeat violations are subject to a maximum fine of $20,000
                                    or one year in prison. Because these violations are presently
                                    misdemeanors, often there is little incentive for prosecutors to
                                    accept cases. Also, the OIG has found that the actual fines im-
                                    posed are usually a small fraction of what can be levied and often
                                    go through a lengthy appeal process.

                                    The OIG believes that strengthening the criminal enforcement
                                    provisions of the OSH Act in this manner will send a strong mes-
                                    sage to other employers engaging in the same type of willful ac-
                                    tivity and serve as a meaningful deterrent. The OIG recommends
                                    enactment of legislation, such as the Occupational Safety and
                                    Health Reform Act (S.575 and HR. 1280) which elevates these
                                    violations to a felony, to ensure that the American worker is better
                                    protected from avoidable occupational hazards.



                                                    57
Semiannual Reporttothe Congress                                                  April1- September30, 1993




FECA Fraud Amendments              In its calendar year 1994 legislative proposals, the OIG recom-
                                  mended that the Department amend the Federal Employees' Com-
                                  pensation Act (FECA) to prohibit individuals from receiving FECA
                                  benefits if they have been convicted of FECA fraud. This legisla-
                                  tive recommendation is the result of a study conducted by the
                                  OIG together with the U.S. Postal Inspection Service. The study
                                  found that individuals, who were incarcerated for defrauding the
                                  FECA program, were still receiving their compensation benefits.
                                  The OIG recommended that these benefits be terminated. The
                                  OIG further recommended that the benefits that are received by
                                  FECA recipients when they are incarcerated for any felony should
                                  be suspended until they, are released from prison. The OIG is of
                                  the opinion that such amendments would greatly enhance the
                                  deterrent value of the statute and provide the Department with a
                                  valuable tool for dealing with those who defraud, or attempt to
                                  defraud, the FECA program. Individuals committing FECA fraud
                                  would not only risk going to jail, but would also jeopardize their
                                  benefits by engaging in criminal activities.

                                  The OIG is encouraged by the fact that the National Performance
                                  Review, directed by the Vice President, recognized the impor-
                                  tance of this issue in the effort to "reinvent" the Federal Govern-
                                  ment. The OIG strongly urges the Congress to consider this
                                  change to the Act.



Increased Monetary                Following a 1991 audit of the enforcement          efforts of the
Penalties for Fair Labor          Department's Wage and Hour Division, the OIG recommended
Standards Record                  that the Department support legislation that would establish civil
Keeping Violations                monetary penalties for violations of the record keeping provision
                                  of the Fair Labor Standards Act (FLSA). These civil monetary
                                  penalties would .,serveto close a loophole that exists in the law.
                                  Currently, the FLSA contains provisions that require employers to
                                  maintain accurate payroll data. However, the law contains no
                                  penalties to sanction employers who do not comply by not main-
                                  taining accurate records. This loophole prevents Wage and Hour
                                  investigators from determining FLSA violations because any in-
                                  vestigation conducted by,the Department concerning alleged mini-
                                  mum wage or overtime 'violations relies on the payroll records of
                                  the employer. Tlhe OIG is of the opinion that the civil monetary
                                  penalties will serve as an inducement for employers to maintain
                                  appropriate records. Adequate record keeping would facilitate
                                  investigative activities and lead to greater compliance with the



                                                  58
SemiannualReport to the Congress                                                   April 1- September 30, 1993




                                   FLSA. Both the OIG and the General Accounting Office have
                                   recommended establishing such penalties for record keeping vio-
                                   lations.



                                   Measures Under Consideration by the Congress


H.R. 1272:                         H.R. 1272 will amend the Employee Retirement Income Security
The Multiple Employer              Act (ERISA) to increase the regulation of multiple employer wel-
Health Benefits Protection         fare arrangements (MEWAs). The bill creates a new section to
Act of 1993                        ERISA requiring MEWAs to submit to State regulation of their
                                   operations, or to seek an exemption from state regulation from
                                   the Secretary of Labor. The MEWAs seeking exemptions must
                                   meet a set of uniform standards set forth in the bill. In addition,
                                   the bill clarifies the definitions of MEWAs that are the result of
                                   collectively bargained agreements, bogus labor unions, or em-
                                   ployee leasing arrangements. This bill also empowers the Sec-
                                   retary with the authority to shut down any MEWAs that are found
                                   to be fraudulent.

                                   The OIG supports the language in this bill, particularly in light of
                                   the health care reform proposal that was recently released by the
                                   President. It is highly probable that the health care reform pack-
                                   age will have to be implemented slowly, thus leaving time for
                                   MEWAs to continue to operate. Legislation such as this could
                                   serve well to prevent or deter the proliferation of fraud ulent MEWAs
                                   or similar health care arrangements, thereby preventing many
                                   American workers from being at risk from unscrupulous MEWA
                                   operators.


H.R. 2710:                         The OIG supports such legislation that would amend the mini-
The Wage and Hour                  mum wage and overtime provisions of the Fair Labor Standards
Reform Equity Act of 1993          Act of 1938. This bill will change the date with which the FLSA's
                                   statute of limitations is computed. The statute of limitations re-
                                   stricts an employer's obligation to repay employees back wages
                                   to a two-year period for non-willful violations and three years for
                                   willful violations of the FLSA. However, parts or all of the statu-
                                   tory period may expire before an employer waives the right to
                                   claim the statute of limitation or before DOL files legal action in
                                   District Court. Either action will stop the running of the statute,
                                   also referred to as "tolling" the statute. Consequently, consider-



                                                   59
Semiannual   Report to the Congress                                                    April 1 - September 30, 1993




                                      able time usually passes from the date DOL Wage and Hour Divi-
                                      sion compliance officers start their investigations, to the date when
                                      the Department of Labor files suit against employers, resulting in
                                      the loss of back wages due to the running of the statute of limita-
                                      tions. H.R. 2710 amends the FLSA to toll the statute of limitations
                                      during the period beginning on the date that a complaint is filed
                                      with the Secretary or that the Department initiates an investiga-
                                      tion, and ending on the date that final action is taken on such an
                                      investigation. The OIG urges the Congress to enact such an
                                      amendment to the Fair Labor Standards Act.




                                      The Special Projects Office (SPO) performs quick-response evalu-
SPECIAL            PROJECTS           ations, analyses, and inspections of programs, activities, organi-
                                      zations, and functions ,of the Department of Labor, including the
OFFICE                                Office of Inspector General. These evaluations, analyses, and
                                      inspections are ,designed to improve program cost efficiency and
                                      effectiveness, management, and the quality of services.


                                      Review of Law Enforcement Officer Benefits for the Office of La-
                                      bor-Management     Standards

                                      At the request of the Assistant Secretary for Administration and
                                      Management, SPO conducted a review of a whistle-blower's alle-
                                      gations concerning the propriety of law enforcement officer spe-
                                      cial retirement and locality pay benefits for positions occupied by
                                      134 investigators and managers of the Office of Labor-Manage-
                                      ment Standards (OLMS). The total cost of the OLMS law en-
                                      forcement locality pay effective January 1992, and the special
                                      retirement benefits retroactive to 1984, is estimated at $756,011
                                      through Fiscal Year 1993.

                                      The OIG concluded that, although some OLMS employees may
                                      qualify for law enforcement officer benefits on an individual basis,
                                      OLMS positions approved by DOL's Office of Assistant Secretary
                                      for Administration and Management and the Office of Personnel
                                      Management (OPM), do not meet the regulatory requirements for
                                      position-based coveracle. The OIG questioned that the time ex-
                                      pended performing certain responsibilities classified as OLMS
                                      criminal law enforcement duties, particularly compliance audits,




                                                      60
SemiannualReporttothe Congress                                                    April1- September30, 1993




                                 qualify under the regulatory definition of primary duties of a law
                                 enforcement officer.

                                 The OIG recommended that the Assistant Secretary for Adminis-
                                 tration and Management: (1) request that OPM revoke the posi-
                                 tion-based, law enforcement officer coverage; (2) determine, in
                                 consultation with OPM, whether compliance audits and other non-
                                 embezzlement investigation activities meet the regulatory require-
                                 ments for coverage; and (3) initiate appropriate actions relative to
                                 benefits provided to OLMS employees who do not qualify for law
                                 enforcement officer coverage.

                                 In response to the draft report, the Assistant Secretary for Admin-
                                 istration and Management acknowledged the workload variances
                                 in OLMS' New York and Washington field offices, and agreed to
                                 assure proper law enforcement officer coverage in these offices.
                                 In addition, the Assistant Secretary advised that he would refer
                                 the eligibility of compliance audits for law enforcement officer cov-
                                 erage to OPM for resolution. The OIG has urged the Assistant
                                 Secretary to further evaluate the propriety of position based law
                                 enforcement officer coverage throughout OLMS and, in referring
                                 the resolution of compliance audits to OPM, to adopt as the
                                 Department's official position, our reservations concerning the eli-
                                 gibility of this activity for law enforcement officer coverage and
                                 benefits. (ReportNo.02-SPO-93-OASAM;       Sept.28, 1993)




                                                 61
Semiannual Reportto the Congress                                                                                                   April 1 - September 30, 1993




Reporting Requirements under
The inspector General Act of 1978
                                                                                                                                                           Page
Requirement

Section4(a)(2) - Review of Legislationand Regulation..........................................................................................55

Section 5(a)(1) - SignificantProblems, Abuses, and Deficiencies............................................................................ ii

Section5(a)(2) - RecommendationsWith Respectto Skjnificant Problems,
 Abuses, and Deficiencies    '        ..............................................................................................................5

Section5(a)(3) - Prior RecommendationsNot Yet Completed............................................................................... 76

Section5(a)(4) - Matters Referred to ProsecutiveAuthorities..................................................................................3

Section5(a)(5) and section 6(b)(2) - Summary of InstancesWhere
  Information Was Refused ................................................................................................................................ None

Section 5(a)(6) - List of Audit Reports.....................................................................................................................83

Section 5(a)(8) - StatisticalTables on Management Decisionson
 Questioned Costs ............................................................................................................................................71,72

Section 5(a)(9) - StatisticalTables on Management Decisionson
  RecommendationsThat Funds Be Put to BetterUse ..........................................................................................73

Section 5(a)(10) - Summary of Each Audit Report Over 6 Months Old for
 Which No Management DecisionHas Been Made.............................................................................................. 74

Section 5(a)(11) - Description and Explanationfor Any Significant
  Revised Management Decision............................................................................................................................ 28

Section 5(a)(12) - Informationon Any SignificantManagementDecisionswith
 Which the InspectorGeneral Disagrees.......................................................................................................... None


Senate Report No. 96-829

Resolutionof Audits............................................................................................................................................71-73
DelinquentDebts                                                                     "                                                                             65



Note: This table cross references the reporting requirements prescribed by the Inspector General Act of 1978, as
amended, to the specific pages where they are addressed. The information requested by the Congress in Senate
Report No. 96-829 relative to the 1980 Supplemental Appropriations and Rescissions Bill, is also cross-referenced
to the appropriate pages of the report.


                                                                               62
Semiannual
        Report
            totheCongress                                                                                                  April1- September
                                                                                                                                          30,1993




                                                   AUDIT SCHEDULES

Money Owed the Department of Labor .............................................................................................................65

This scheduledepictsthe amountof moneythat is owedto the Departmentof Labor. In orderto demonstratethe
extent of change in the balancesowed to the Department, data are providedon the amountsowed at boththe
beginningand end of the 6-month reporting period. The schedule also reports on those amountswhich were
appealed, collected, and written-off, as well as the amounts adjusted as a result of any appeals and revised man-
agement decisions.

Summary of Audit Activity of DOL Programs .................................................................................................. 66

This schedule summarizes, by DOL agency, the number of audit reports issued during the 6-month reporting period,
the amount of dollars audited, and the amount of dollars questioned by auditors as having been improperly ex-
pended.

Summary of Audit Activity of ETA Programs ...................................................................................................67

This schedule details, for the Employment and Training Administration (ETA), the number of audit reports issued
during the 6-month reporting period, the amount of dollars audited, and the costs questioned by auditors as having
been improperly expended. (This additional detail is provided since most of DOL funds are in ETA.)

Summary of Audits Performed Under the Single Audit Act ........................................................................... 68

This schedule summarizesthe audit reports,issuedduringthe 6-month reportingperiod, which were prepared in
accordancewiththe SingleAuditAct. Thisschedule alsodetailsthe amountof dollarsaudited,as well as the costs
questionedby auditorsas having been improperlyexpended.

Summary of Audits Performed Under the Single Audit Act: Multi-Agency Program Reviews................... 69

This schedule depicts the number of singleaudit reports,issuedduringthe 6-month reportingperiod,that covered
more than one Department of Labor programagency. This schedulealso detailsthe amount of dollars that were
audited, as well as the costsquestionedby auditorsas havingbeen improperlyexpended.

Audits by Non-Federal Auditors ........................................................................................................................70

This schedule is a report to theOffice of Managementand Budget(OMB) Onthe qualityand resultsof singleaudits
performed by non-Federal auditors during the 6-month reporting period.

Summary of Audit Resolution Activity: Questioned Costs ............................................................................ 71

This schedule shows the extent to which DOL management has taken steps, during the 6-month reporting period, to
resolve the costs questioned as having been improperly expended. Audit resolution occurs when management
either agrees with the auditor's finding and disallows those costs that were questioned, or management decides that
the expenditure should be allowed. (This schedule is required by Section 5(a)(8) of the Inspector General Act, as
amended.)




                                                                           63
Semiannual
        Report
            totheCongress                                                                                                        April1- September
                                                                                                                                                30,1993




Summary of Audit Resolution Activity: Unsupported Questioned Costs .................................................... 72

This schedule shows the extent to which DOL management has taken steps, during the 6-month reporting period, to
resolve the costs questioned by the auditor because the,./were not supported by appropriate records or documenta-
tion. Audit resolution occurs when management either agrees with the auditor's finding and disallows those unsup-
ported costs that were questioned, or management decides that the expenditure should be allowed. (This schedule
is required by Section 5(a)(8) of the Inspector General Act, as amended.)

Summary of Audit Resolution Activity: Funds Put to Better Use.................................................................. 73

This schedule depicts the extent to which DOL management has taken steps, during the 6-month reporting period,
to resolve funds that the auditor recommended be put to better use. Audit resolution occurs when management
either agrees with the auditor's finding, or management disagrees that the funds can or should be put to better use.
(This schedule is required by Section 5(a)(9) of the Inspector General Act, as amended.)

Unresolved Audits Over 6 Months ......................................................................................................................74

This schedule presents a summary of all audit reports that continue to remain unresolved for more than 6 months.
For these reports, a management decision is still outstanding. (This schedule is required by Section 5(a)(10) of the
Inspector General Act, as amended.)

Summary of Final Action Activity: Disallowed Costs ...................................................................................... 76

This schedule presents the final action activity for costs that have been disallowed during the 6-month reporting
period. This schedule is included in the OIG Semiannual Report to demonstrate the flow of information to the
Secretary's Semiannual Management Report, which is issued by the Secretary as required by section 5(b)(2) of the
Inspector General Act, as amended.

Summary of Final Action Activity: Funds to Be Put to Better Use ................................................................ 77

This schedule depicts, by program agency, the final action activity during the 6-month reporting period for those
funds that were recommended by the auditor to be put to better use. This schedule is included in the OIG Semian-
nual Report to demonstrate the flow of information to the Secretary's Semiannual Management Report, which is
issued by the Secretary as required by Section 5(b)(3) of the Inspector General Act, as amended.

Significant Recommendations Resolved for Over One Year on which Corrective Action Has Not
Been Completed, as of September 30, 1993 ..................................................................................................... 78

This schedule presents the significant audit recommendations which have been resolved for over one year and on
which corrective action has not been completed.

Final Audit Reports Issued ................................................................................................................................. 83

This schedule lists all audit reports that were issued during the six-month reporting period, as required by Section
5(a)(6) of the Inspector General Act, as amended.




                                                                             64
                      Summary   of Audit Activity of DOL Programs
                          April 1, 1993 - September 30, 1993



                Reports                Grant/Contract               Questioned Costs
Agency          Issued                 Amount Audited 1       Unsupported       Other 2

OSEC                  1                    $            0         $         0         $      0

VETS                  3                        186,547                      0                0

ETA                 139                53,723,821,842              511,283            317,695

ESA                   7                                 0             32,436                 0

LMSA                  1                                 0                   0                0

MSHA                  5                   197,343,626                 3,538                  0

OASAM                 9               51,171,965,190               177,864                   0

OSHA                  6                     2,302,291             208,880                    0

BLS                   2                   314,626.,000                      0                0

PWBA                  2                                 0                  0                 0

Multi-Agency         39                 4,319,626,927             775,900             134,938

OT AGY                4                                0                   0                 0

Totals             218              $109,729,872,423           $1,709,901           $452,633

'Grant/ContractAmountAuditedare overstatedbecause,in some cases,expenditureswere auditedat more than
one level as fimdswerepasseddown fronl Departmentto programagencyto programofficeto grantee/contractor
to subrecipient.

2OtherQuestionedCostsinclude$211,808in FundsRecommendedfor Better Useas reportedin AuditReports
12-93-020-06-001,$2,928, 19-93-005-10-001,$80,000,and 12-93-021-10-107,$128,880.




                                                 66
               Summary   of Audit   Activity of ETA Programs
                    April 1, 1993 - September        30, 1993



          Reports           Grant/Contract                 Questioned Costs
Program   Issued            Amount Audited           Unsupported       ,Other

ADMIN           1           $    7,220,770           $          0   $           0

OFCMS           1                            0                  0               0

UIS            2           53,571,740,000                       0               0

USES           2                44,385,737                      0               0

OTAA            1                            0                  0               0

JTPA          17                 8,632,975                 75,622        296,892

OSTP           1                    663,300                     0               0

DINAP         81                30,576,923                234,657          5,683

DOWP           8                26,123,063                 25,437               0

DSFP          15                17,141,004                      0         15,120

OJC            5                 3,261,794                175,313               0

OSPPD          5                14,076,276                    254               0

Totals       139          $53,723,821.,842       '       $511,283       $317,695




                                       67
              Summary         of Audits     Performed        Under     the Single       Audit     Act
                                April    1, 1993 - September           30, 1993



                  Entities     Reports        Grant/Contract                 Questioned          Costs
Agency            Audited      Issued         Amount Audited           Unsupported                Other


VETS                     0           3                 186,547                        0                  0

ETA                    60          120            132,035,731                 131,474              5,767

MSHA                     2           3                 2!36,787                    610                   0

OSHA                     1           3                 418,301                        0                  0

Multi-Agency            11          39         4,319,626,927                 775,900             134,938

OT AGY                   3           3                         0                      0                  0

Totals                 77         171        $4,452,504,293                 $907,984           $140,705


Note: DOL has cognizant responsibility for specific entities under the Single Audit Act.     More than one audit
report may have been transmitted or issued for an entity during this time period. Reports    are transmitted or issued
based on the type of funding and the agency/program responsible for resolution. During      this period, DOL issued
reports on 77 entities for which DOL was cognizant; in addition, DOL issued 94 reports      which included direct
DOL funds for which DOL was not cognizant.




                                                        68
              Summary        of Audits Performed Under the Single Audit Act
                                Multi-Agency Program Reports
                              April 1, 1993 - September 30, 1993

                          Number of                                    Questioned   Costs
Agency                Recommendations                 Unsupported                              Other

VETS:
 CONTR                            1                             484                                     0

ETA:
 UIS                              6                         31,290                            120,376
 USES                            1                                 0                            14,562
 SESA                            7                          89,235                                    0
 JTPA                           18                         654,778                                    0

OSHA:
 OSHAG                            1                             113                                     0


Totals                          34                       $775,900                            $134,938


Note: Multi-Agency Program Reports relate to Single Audit reports. The report may be on a statewide audit
where DOL has accepted "lead" cognizance or it may be on a single entity under the direct responsibility of DOL.
If multiple DOL programs were audited, the multi-agency designation was used. Individual recommendations
within the report designate which agency/program is responsible for resolution. Thirty-four recommendations are
contained within the 39 multi-agency reports issued this period.




                                                      69
70
                   o
           _       _          o   °
                                  o




om




'_   = /       =       ....

_,_ _1 _   -_ _1




 =
r_




                                      73
                                           Unresolved    Audits Over 6 Months
                                           April 1, 1993 - September             30, 1993

                        Date               Audit                                            No of    Questioned
Agency     Program     Issued            Report Number   Name of Audit/Auditee               Rec           Costs

Under Litigation:

ETA        JTPA        31-MAR-92     04-92-014-03-340    DENNIS AND ASSOCIATES - SC             4    $ 2,774,604
ETA        JTPA        01-SEP-92     04-92-030-03-340    DENNIS AND ASSOCIATES, INC             4         120,491
ETA        JTPA        17-APR-91     05-91-012-03-340    SEATTLE KING COUNTY OJT BROKER         2          15,751
ETA        JTPA        25-SEP-92     06-92-010-03-340    EAST TEXAS CNCL OF GOVERN             13      5,780,925
ETA        ALLDOL      25-AUG-89     03-89-083-50-598    COMMONWEALTH    OF PA                  1          78,270
ETA        ALLDOL      07-FEB-91     03-91-012-50-598    COMMON_rEALTH   OF PA                  1          29,539

Awaiting Resolution:

ETA        ADMIN       25-AUG-92     12-92-021-03-001    UNEMPLOY TRUST FUND FY 91 _          3                    0
ETA        ADMIN       25-AUG-92     12-92-022-03-001    ETA FY 91 FIN STMTS l                4                    0
ETA        JTPA        29-MAR-91     05-91-054-03-330    SEL ELEM OF TAA ADMIN BY MESC 2     12           394,825
ETA        JTPA        31-MAR-93     03-93-001-03-340    MONTGOMERY CO TRNG & PROG 3          2            72,410
ETA        JTPA        26-MAR-92     04-92-021-03-340    FL UNRESTRICTED   FUND BAL/COMP 4    4        4,742,947
ETA        JTPA        17-APR-91     05-91-012-03-340    SEATTLE KING COUNTY OJT BROKER 3 1                13,470
ETA        JTPA        07-DEC-92     06-93-001-03-340    LIMITED SCOPE - PERIEN BASIN 3       1           135,576
ETA        JTPA        23-MAR-93     06-93-005-03-340    MIDDLE RIO GRANDE COUNCIL 3          4          885,525
ETA        JTPA        01-MAR-93     09-93-005-03-340    SOLANO COUNTY JTPA PROGRAM 3        17        1,677,292
ETA        DINAP       18-DEC-92     18-93-005-03-355    CANDELARIA PY 905                    1                  0
ETA        OJC         25-JAN-93     12-93-004-03-370    JC TRANSPORTATION    SYSTEM INTER 6 8             44,492
ETA        OJC         01-MAR-93     18-93-007-03-370    UAW-LABOR EMPLOY & TRNG CO 7         1                  0
ETA        OJC         01-MAR-93     18-93-008-03-370    UAW-LABOR EMPLOY & TRNG CO 7         4                  0
OASAM      ADMIN       28-JUN-91     12-91-009-07-001    FY 90 CONSOLIDATED    FIN STMTS 8    9                  0
OASAM      ADMIN       28-AUG-92     12-92-002-07-001    FY 91 CONSOLIDATED    FIN STMTS 8   16                  0
OASAM      ADMIN       26-MAR-93     12-93-016-07-001    COMBINING SCHED NET ADVANCES 9       5                  0
OASAM      OPGM        28-MAR-91     18-91-007-07-735    TAG - INDII_tECT COSTS 1°             4          43,738

Pending Indirect    Cost Negotiations:

ETA       DOWP         18-DEC-92     18-93-006-03-360    NATL PACIFIC/ASIAN RESOURCE H         8        201,928
ETA       OJC           10-SEP-92    18-92-027-03-370    LEO A. DALY FY 87 _                   2        210,695
OASAM     OPGM         24-NOV-92     12-93-007-07-735    AURORA ASSOC INC DCAA _               2           1,627
OASAM     OPGM         21-MAR-91     18-91-024-07-735    NATL GOVERNORS ASSOCIATION H          3        646,002
OASAM     OPGM         30-SEP-91     18-91-035-07-735    OIC. OF AMERICA DIRECT & IND 1_      13        481,785
OASAM     OPGM         23-SEP-91     18-91-042-07-735    HOME BUILDERS INSTITUTE H            13        285,112
OASAM     OPGM         31-MAR-92     18-92-016-07-735    NTL ASSOC OF COUNTIES 11              2        238,772
OASAM     OPGM         22-JUN-92     18-92-024-07-735    NTL CONF OF BLACK MAYORS II          12        194,850
OASAM     OPGM         24-AUG-92     18-92-026-07-735    TECH ASST GROUP _                     4        131,144
OASAM     OPGM         18-MAR-93     18-93-009-07-735    NATL COUNCIL ON AGING H               4        376,053

TOTAL    AUDIT EXCEPTIONS:                                                                   184    $19,577,823

Notes are located on the following page.




                                                          74
Notes to "Unresolved    Audits Over 6'Months      Precluded From Resolution"

tRecommendations were reviewed under their respective Current FY 92 audits and remain unresolved.

2ETA issued a formal notice to the Michigan Employment Security Commission on March 20, 1992, in accordance with the TAA
regulations at 20 CFR 617.52(c). ETA completed a desk review of MESC's response and a field review. They recommended that
a new or revised notice be issued to MESC.

3The States have 180 days to issue a Final Management Decision.        Program Agencies and OIG have an additional 180 days to
accept the State-level decision.

4ETA withdrew its initial determination and issued a revised determination which allowed $2.7 million of the $4.7 million
questioned. Because ETA accepted grantees' claims of "stand-in" costs that were unsupported            or otherwise unacceptable,   the OIG
did not accept the revised determination and is conferring with ETA on this issue.

SETA has not provided a formal response to the audit recommendation.

6Report deals with recommendations revolving around recovery of unused airline tickets from the private travel agency and
revisions to the Job Corps travel policies and procedures. We are waiting for Job Corps' response to the final report.

7Audit resolution on recomlnendations    will be delayed pending issuance of a related audit report.

8Recommendations    were reviewed under their respective current FY 92 audits and remain unresolved.

9Unresolved pending a response     from the Grants Task Force established by the Department     to address the findings in the report.

mOffice of Cost Determination    has issued its indirect cost negotiation agreement.   We are waiting for ETA's final management
decision.

HOMB Circular A-50 does not require resolution within 180 days.




                                                              75
                     _   o_   I_,




     o_        o   oooooooo   _


t_




_         _o oooooooo
                    _




          o_                    o_




                                     77
78
79
8O
_--   _   <   <        <   <   <   <   <   <




                  8!
     o
     o




82
                                        FINAL AUDIT REPORTS ISSUED
                                            01-APR-93 TO 30-SEP-93

                                         Date Sent
Audit                                    to Program
Report Number       Agency    Program    Agency       Name of Audit/Auditee

02-93-274-03-340    ETA       JTPA       30-SEP-93    Title IIl Retraining Services in Massachusetts

02-93-207-03-355    ETA       D1NAP      29-SEP-93    American Indians for     Development, Inc
02-93-246-03-355"   ETA       DINAP      08-JUN-93    Central Maine Indian     Association, Inc - SA
02-93-247-03-355"   ETA       DINAP      08-JUN-93    Central Maine Indian     Association, Inc - SA
02-93-248-03-355"   ETA       DINAP      08-JUN-93    Central Maine Indian     Association, Inc - SA

02-93-252-03-380    ETA       SPPD       26-APR-93    Waterbury, CT- SA

02-93-258-10-101    OSHA      OSHAG      17-JUN-93    Greater Lawrence Chamber of Commerce, Inc-        SA

02-93-236-50-598    MULTI     AL/DOL     18-JUN-93    Suffolk County- SA
02-93-250-50-598"   MULTI     AL/DOL     28-APR-93    New Hampshire- SA
02-93-253-50-598"   MULTI     AL/DOL     08-JUN-93    Connecticut Department of Labor- SA
02-93-255-50-598    MULTI     AL/DOL     16-JUN-93    Rhode Island and Providence Plantations-     SA
02-93-257-50-598    MULTI     AL/DOL     17-SEP-93    Massachusetts-   SA
02-93-259-50-598    MULT1     AL/DOL     l l-JUN-93   Maine-SA
02-93-272-50-598*   MULT1     AL/DOL     27-SEP-93    Tribal Governors, Inc- SA

03-93-034-03-315    ETA       UIS        29-SEP-93    UI Performance    Measures

03-93-048-03-340*   ETA       JTPA       24-SEP-93    Epilepsy Foundation of America (12/31/91) - SA
03-93-049-03-340*   ETA       JTPA       24-SEP-93    Epilepsy Foundation of America (12/31/89) - SA
03-93-050-03-340*   ETA       JTPA       24-SEP-93    Epilepsy Foundation of America (12/31/90) - SA
03-93-051-03-340"   ETA       JTPA       24-SEP-93    National Association of Rehabilitation Facilities 12/31/91 - SA
03-93-052-03-340*   ETA       JTPA       24-SEP-93    National Association of Rehabilitation Facilities, Inc - SA
03-93-056-03-340*   ETA       JTPA       24-SEP-93    Baltimore City Office of Employment Development - SA
03-93-057-03-340    ETA       JTPA       24-SEP-93    Philadelphia- SA
03-93-058-03-340    ETA       JTPA       24-SEP-93    Philadelphia Mayor's Office of Community Services- SA
03-93-059-03-340*   ETA       JTPA       24-SEP-93    Association of Farmworker Opportunity Programs - SA
03-93-060-03-340*   ETA       JTPA       24-SEP-93    Association of Farmworker Opportunity Programs & Subsidiary - SA
03-93-061-03-340"   ETA       JTPA       24-SEP-93    National Federation of the Blind 12/31/91 - SA

03-93-047-03-360*   ETA       DOWP       24-SEP-93    National Caucus and Center on Black Aged, Inc - SA
03-93-054-03-360*   ETA       DOWP       24-SEP-93    Baltimore City, Office of Employment Development 6/30/90 - SA
03-93-055-03-360"   ETA       DOWP       24-SEP-93    Baltimore City, Office of Employment Development 6/30/91 - SA

03-93-033-03-370    ETA       OJC        30-SEP-93    Job Corps Performance Measures
03-93-053-03-370*   ETA       OJC        24-SEP-93    Baltimore City, Office of Employment     Development   - SA

03-93-025-04-431    ESA       FECA       07-JUN-93    FECA   Agreed    Upon   Procedures Jacksonville Dist Office FY 92
03-93-026-04-431    ESA       FECA       17-JUN-93    FECA   Agreed    Upon   Procedures New York Dist Office FY 92
03-93-027-04-431    ESA       FECA       17-JUN-93    FECA   Agreed    Upon   Procedures Denver Dist Office FY 92
03-93-028-04-431    ESA       FECA       17-JUN-93    FECA   Agreed    Upon   Procedures San Francisco D.O. FY 92
03-93-029-04-431    ESA       FECA       17-JUN-93    FECA   Agreed    Upon   Procedures Seattle Dist Office FY 92



*DOL has cognizant responsibility tbr specific entities under the Single Audit Act. Reports listed and asterisked above
indicate those entities for which DOL has cognizance. More than one audit report may have been issued or transmitted for an
entity during this time period. Reports are issued on the type of funding and the agency/program responsible for resolution.




                                                             83
                                       FINAL AUDIT REPORTS ISSUED
                                           01-APR-93 TO 30-SEP-93

                                        Date Sent
Audit                                   to Program
Report Number       Agency   Program    Agency       Name of Audit/Auditee

03-93-030-11-001    BLS      ADMIN      24-SEP-93    BLS Performance     Measures

03-93-044-50-598*   MULTI    AL/DOL     24-SEP-93    DC Department     of Employment       Services-   SA
03-93-045-50-598    MULTI    AL/DOL     29-SEP-93    Maryland-SA

04-93-026-02-210    VETS     VETSPM     01-APR-93 Nashville Davidson County-          SA
04-93-028-02-210    VETS     VETSPM     19-MAY-93 Jacksonville- SA

04-93-033-03-310    ETA      OFCMS      29-SEP-93    ETA Performance     Measures FY 1992

04-93-027-03-320    ETA      USES       20-AUG-93    TJTC Program- Alabama
04-93-049-03-320*   ETA      USES       13-SEP-93    South Carolina Employment       Security Commission    - SA

04-93-013-03-340    ETA      JTPA       02-SEP-93    PIC of Atlanta- SA
04-93-024-03-340*   ETA      JTPA       11-JUN-93    South Carolina Governor's      Office - SA
04-93-046-03-340    ETA      JTPA       23-SEP-93    GA DOL Selected SDA Fixed Fee Contracts with Quality Plus, Inc

04-93-039-03-355*   ETA      DINAP      04-AUG-93    Haliwa-Saponi Indian Tribe, Inc - SA
04-93-040-03-355    ETA      D/NAP      11-AUG-93    Seminole Tribe of Florida, Inc - SA
04-93-043-03-355*   ETA      D/NAP      17-AUG-93    Catawba Indian Nation - SA
04-93-044-03-355*   ETA      D/NAP      23-AUG-93    Intertribal Council of Alabama- SA

04-93-029-03-365*   ETA      DSFP       13-APR-93    Delta Housing Development Corporation - SA
04-93-031-03-365"   ETA      DSFP       04-AUG-93    MS Delta Council for Farmworkers Opportunities,        Inc - SA
04-93-045-03-365*   ETA      DSFP       23-AUG-93    Homes in Partnership - SA
04-93-048-03-365*   ETA      DSFP       09-SEP-93    Centro Campesino- SA

04-93-050-06-601    MSHA     GRTEES     16-SEP-93    Midlands Technical College-      SA

04-93-022-50-598*   MULTI    AL/DOL     01-APR-93    North Carolina-   SA
04-93-035-50-598    MULTI    AL/DOL     18-JUN-93    Georgia-SA
04-93-036-50-598    MULTI    AL/DOL     13-JUL-93    Tennessee-SA
04-93-037-50-598    MULTI    AL/DOL     23-JUL-93    Mississippi-SA

04-93-030-98-599*   OT AG    NO/DOL     25-MAY-93    Louisville- SA
04-93-032-98-599*   OT AG    NO/DOL     ll-JUN-93    Orange County, Florida- SA
04-93-042-98-599*   OT AG    NO/DOL     12-AUG-93    Brevard County, Florida- SA

05-93-209-02-201    VETS     CONTR      30-APR-93    Milwaukee County, Wisconsin-          SA

05-93-008-03-330    ETA      OTAA       30-SEP-93    TAA Program Outcomes in Nine Selected States FYs 91 and 92

05-93-124-03-340"   ETA      JTPA       16-AUG-93    Management,   Training & Consulting Corp. - SA

05-93-122-03-350"   ETA      OSTP       04-AUG-93    PREP, Incorporated - SA

05-93-115-03-355"   ETA      DINAP      20-MAY-93    Michigan Indian Employment & Training Services, Inc - SA
05-93-118-03-355"   ETA      DINAP      10-JUN-93    Indian Center, Inc - SA
05-93-121-03-355"   ETA      DINAP      02-AUG-93    Wisconsin Indian. Consortium - SA
05-93-125-03-355"   ETA      D/NAP      18-AUG-93    Nebraska Indian Inter-Tribal Development Corp - SA



                                                            84
                                       FINAL AUDIT REPORTS ISSUED
                                           01-APR-93 TO 30-SEP-93

                                        Date Sent
Audit                                   to Program
Report Number       Agency   Program    Agency     Name of Audit/Auditee

05-93-129-03-355"   ETA      DINAP      22-SEP-93   American Indian Council, Inc - $A
05-93-206-03-355    ETA      DINAP      20-APR-93   Sac and Fox Tribe of the Mississippi   in Iowa-   SA
05-93-207-03-355    ETA      DINAP      22-APR-93   Fond Du Lac Reservation- SA
05-93-208-03-355    ETA      DINAP      26-APR-93   Lac Du Flambeau Band of Lake Superior Chippewa Indians - SA
05-93-213-03-355    ETA      DINAP      18-MAY-93   Menominee Indian Tribe of Wisconsin-SA
05-93-216-03-355    ETA      DINAP      27-SEP-93   Red Lake Band of Chippewa Indians- SA
05-93-217-03-355    ETA      D/NAP      29-SEP-93   Oneida Tribe of Indians of Wisconsin- SA


05-93-205-03-360    ETA      DOWP       15-APR-93   Nebraska Department    on Aging - SA

05-93-116-03-365"   ETA      DStZP      25-MAY-93 Midwest Fannworker Employment & Training, Inc - SA
05-93-119-03-365"   ETA      DSFP       10-JUN-93 Proteus Employment Opportunities, Inc - SA
05-93-120-03-365"   ETA      DSFP       18-JUN-93 Rural Missouri, Inc - SA
05-93-127-03-365"   ETA      DSFP       10-SEP-93 Homes/Casas, Inc- SA
05-93-128-03-365"   ETA      DSFP       16-SEP-93 Nebraska Association ofFarmworkers-   SA
05-93-130-03-365"   ETA      DSFP       24-SEP-93 SER Corporation- SA

05-93-123-03-380"   ETA      SPPD       12-AUG-93   Private Industry Council of Columbus & Franklin Co., Inc - SA
05-93-214-03-380    ETA      SPPD       24-8EP-93   Chicago, IL- SA

05-93-006-10-001    OSHA     ADMIN      29-SEP-93   OSHA Performance      Measures

05-93-117-50-598"   MUUI'I   AL/DOL     27-MAY-93 Nebraska Department of Labor- SA
05-93-126-50-598"   MULTI    AL/DOL     02-SEP-93 Indiana Department of Labor- SA
05-93-204-50-598    MULTI    AL/I)OL    01-APR-93 Minnesota-SA
05-93-210-50-598    MULTI    AL/DOL     05-MAY-93 Kansas- SA
05-93-211-50-598    MULTI    AL/DOL     06-MAY-93 Wisconsin-SA
05-93-212-50-598    MULTI    AL/DOL     14-MAY-93 Iowa- SA
05-93-215-50-598    MULTI    AL/DOL     24-SEP-93   Chicago, IL- SA

06-93-115-03-355*   ETA      D/NAP      15-APR-93   Four Tribes Consortium of Oklahoma - SA
06-93-231-03-355    ETA      D1NAP      13-APR-93   Santo Domingo Tribe- SA
06-93-232-03-355    ETA      D/NAP      13-APR-93   Eight Northern Indian Pueblos Council, Inc - SA
06-93-233-03-355    ETA      DINAP      13-APR-93   Crow Tribe of Indians- SA
06-93-235-03-355    ETA      D/NAP      15-APR-93   Rosebud Sioux Tribe- SA
06-93-237-03-355    ETA      DINAP      22-APR-93   Wyoming Department of Health- SA
06-93-238-03-355    ETA      D/NAP      23-APR-93   Santa Clara Indian Pueblo - SA
06-93-239-03-355    ETA      DINAP      23-APR-93   Crow Tribe of Indians- SA
06-93-240-03-355    ETA      D/NAP      23-APR-93   Crow Tribe of Indians- SA
06-93-241-03-355    ETA      DINAP      26-APR-93   OsageNation-SA
06-93-242-03-355    ETA      D/NAP      04-MAY-93   Ute Mountain Tribe - SA
06-93-243-03-355    ETA      DINAP      04-MAY-93 Standing Rock Sioux Tribe- SA
06-93-244-03-355    ETA      DINAP      1 I-MAY-93 Ramah Navajo School Board, hnc - SA
06-93-245-03-355    ETA      DINAP      27-MAY-93 Flandreau Santee Sioux Tribe - SA
06-93-247-03-355    ETA      D1NAP      11-JUN-93  Alamo Navajo School Board, Inc - SA
06-93-250-03-355    ETA      D/NAP      22-JUL-93  Mescalero Apache Tribe- SA
06-93-251-03-355    ETA      DINAP      22-JUL-93  Shoshone and Arapaho Tribes - SA
06-93-252-03-355    ETA      D1NAP      27-JUL-93 Northern Cheyenne Tribe- SA
06-93-253-03-355    ETA      DINAP      27-IUL-93  Devil's Lake Sioux Tribe- SA
06-93-254-03-355    ETA      D1NAP      03-AUG-93 Southern Ute Indian Tribe- SA




                                                           85
                                       FINAL AUDIT REPORTS ISSUED
                                           01-APR-93 TO 30-SEP-93

                                        Date Sent
Audit                                   to Program
Report Number       Agency    Program   Agency       Name of Audit/Auditee

06-93-255-03-355    ETA       D1NAP     05-AUG-93    Cheyenne River Sioux Tribe- SA
06-93-257-03-355    ETA       DINAP     09-AUG-93    Assiniboine & Sioux Tribes- SA
06-93-258-03-355    ETA       D1NAP     09-AUG-93    Comanche Indian Tribe- SA
06-93-259-03-355    ETA       D1NAP     11-AUG-93    United Sioux Tribes of South Dakota Development   Corporation -SA
06-93-260-03-355    ETA       DINAP     14-SEP-93    Ponca Tribe of Oklahoma- SA
06-93-261-03-355    ETA       DINAP     16-SEP-93    Chickasaw Nation - SA
06-93-262-03-355    ETA       D1NAP     16-SEP-93    RamahNavajo    School Board, Inc - SA
06-93-263-03-355    ETA       DINAP     21-SEP-93    Pueblo ofAcoma-    SA
06-93-264-03-355    ETA       DINAP     21-SEP-93    Confederated Salish & Kootenai Tribes- SA
06-93-265-03-355    ETA       DINAP     22-SEP-93    Five Sandoval Indian Pueblos, Inc - SA

06-93-266-03-355    ETA       DINAP     22-SEP-93    Five Sandoval Indian Pueblos, Inc - SA
06-93-267-03-355    ETA       DINAP     22-SEP-93    Five Sandoval Indian Pueblos, Inc- SA
06-93-268-03-355    ETA       D1NAP     22-SEP-93    Five Sandoval Indian Pueblos, Inc - SA

06-93-256-03-360    ETA       DOWP      05-AUG-93    New Mexico State Agency on Aging - SA

06-93-119-03-365"   ETA       DSFP      27-JUL-93    Home Education Livelihood Program, Inc - SA

06-93-009-04-410    ESA       OFCCP     29-SEP-93    OFCCP Performance    Measures

06-93-008-04-420    ESA       WHD       29-SEP-93    Wage & Hour Performance    Measures

06-93-117-10-101"   OSHA      ()SHAG    27-MAY-93    Arkansas Workers' Compensation   Commission   - SA

06-93-116-50-598"   MULTI     AL/DOL    27-MAY-93    Arkansas Department of Labor- SA
06-93-118-50-598"   MULTI     AL/DOL    10-JUN-93    New Mexico Department of Labor - SA
06-93-120-50-598"   MUL'I'I   AL/DOL    27-JUL-93    Wyoming Department of Employment-   SA
06-93-229-50-598    MULTI     AL/DOL    01-APR-93    South Dakota-SA
06-93-230-50-598    MULTI     AL/DOL    02-APR-93    Oklahoma-SA
06-93-234-50-598    MULTI     AL/DOL    15-APR-93    Colorado-SA
06-93-236-50-598    MULTI     AL/DOL    26-APR-93    Montana-SA
06-93-246-50-598    MULTI     AL/DOL    02-JUN-93    Utah-SA
06-93-248-50-598    MULTI     AL/DOL    15-JUN-93    Louisiana-SA
06-93-249-50-598    MULTI     AL/DOL    19-JUL-93    Texas- SA

09-93-510-03-355"   ETA       DINAP     25-MAY-93    Affiliation of Arizona Indian Centers - SA
09-93-542-03-355    ETA       DtNAP     02-APR-93    Kenafize Indian Tribe- SA
09-93-544-03-355*   ETA       DINAP     02-APR-93    Seattle Indian Center - SA
09-93-545-03-355*   ETA       DINAP     02-APR-93    Seattle Indian Center - SA
09-93-546-03-355*   ETA       DINAP     02-APR-93    Seattle Indian Center - SA
09-93-547-03-355*   ETA       DINAP     02-APR-93    Seattle Indian Center - SA
09-93-548-03-355*   ETA       DINAP     02-APR-93    Seattle Indian Center - SA
09-93-549-03-355*   ETA       DINAP     02-APR-93    Seattle Indian Center - SA
09-93-550-03-355    ETA       DINAP     02-APR-93    Gila River Indian Community- SA
09-93-552-03-355*   ETA       DINAP     06-APR-93    Organization of the Forgotten American - SA
09-93-553-03-355*   ETA       DINAP     20-APR-93    Idaho Migrant Council - SA
09-93-560-03-355    ETA       DINAP     25-MAY-93    Confederated Tribes of the Colville Reservation - SA
09-93-561-03-355    ETA       DINAP     25-MAY-93    Confederated Tribes of the Warm Springs Reservation - SA
09-93-562-03-355    ETA       DINAP     24-MAY-93    Kodiak Area Native Association - SA




                                                            86
                                       FINAL AUDIT REPORTS ISSUED
                                           01-APR-93 TO 30-SEP-93

                                        Date Sent
Audit                                   to Program
Report Number       Agency   Program    Agency     Name of Audit/Auditee

09-93-563-03-355    ETA      DINAP      02-JUN-93   Kodiak AreaNative Association - SA
09-93-564-03-355    ETA      DINAP      09-JUN-93   Kodiak Area Native Association- SA
09-93-567-03-355*   ETA      DINAP      15-JUN-93   Bristol Bay Native Association - SA
09-93-569-03-355    ETA      D1NAP      26-AUG-93   Tohono O'Odham Nation- SA
09-93-570-03-355*   ETA      DINAP      21-JUL-93   Alu Like - SA
09-93-572-03-355    ETA      DINAP      27-JUL-93   Cook Inlet Tribal Council- SA
09-93-573-03-355    ETA      DINAP      11-AUG-93   Confederated Tribes of the Umatilla Indian Reservation      - SA
09-93-574-03-355    ETA      D1NAP      11-AUG-93   Confederated Tribes of the Umatilla Indian Reservation      - SA
09-93-575-03-355    ETA      DINAP      11-AUG-93   Salt River Pima-Maricopa Indian Community - SA
09-93-576-03-355*   ETA      DINAP      11-AUG-93   Las Vegas Indian Center - SA
09-93-579-03-355    ETA      DINAP      24-AUG-93   Tohono O'Odham Nation- SA
09-93-580-03-355*   ETA      DINAP      25-AUG-93   Affiliation of Arizona Indian Centers - SA
09-93-582-03-355*   ETA      DINAP      22-SEP-93   Candelaria American Indian Council- SA
09-93-587-03-355"   ETA      DINAP      22-SEP-93   American Indian Association of Tucson- SA

09-93-566-03-360*   ETA      DOWP       20-JUL-93   National Association      for Hispanic Elderly-   SA

09-93-581-03-365"   ETA      DSFP       03-8EP-93   Portable Practical Educational Preparation - SA
09-93-583-03-365*   ETA      DSFP       03-8EP-93   California Human Development Corporation- SA
09-93-585-03-365    ETA      DSFP       14-8EP-93   County of Kern- SA

09-93-578-03-380"   ETA      SPPD       19-AUG-93   Los Angeles-   SA

09-93-557-06-601"   MSHA     GRTEES     25-MAY-93   Idaho Department    of Labor & Industrial Services - SA
09-93-558-06-601"   MSHA     GRTEES     26-MAY-93   Idaho Department    of Labor & Industrial Services- SA

09-93-577-10-101    OSHA     OSHAG      II-AUG-93   Boise State University-     SA

09-93-006-12-001    PWBA     ADMIN      30-SEP-93   PWBA Performance Measures
09-93-007-12-001    PWBA     ADM1N      30-SEP-93   LMSA FY 92 Financial Statements

09-93-551-50-598    MULTI    AL/DOL     09-APR-93   Oregon- SA
09-93-554-50-598    MULTI    AL/DOL     05-MAY-93   Federated States ofMicronesia- SA
09-93-555-50-598    MULTI    AL/DOL     14-MAY-93   Commonwealth of the Mariana Islands- SA
09-93-556-50-598    MULTI    AL/DOL     12-MAY-93   Commonwealth of the Northern Mariana Islands-          SA
09-93-559-50-598    MULTI    AL/DOL     02-JUN-93   Washington-SA
09-93-565-50-598    MULT1    AL/DOL     14-JUN-93   American Samoa Government- SA
09-93-568-50-598    MULTI    AL/DOL     20-JUL-93   Govermnent of Guam- SA
09-93-571-50-598"   MULTI    AL/DOL     27-JUL-93   Hawaii DLIR- SA
09-93-586-50-598    MULTI    AL/DOL     30-SEP-93   Alaska-SA

12-93-001-03-001    ETA      ADM1N      30-8EP-93   FY 92 ETA Financial Schedules

12-93-002-03-315    ETA      UIS        30-8EP-93   FY 92 UI Financial Statements

12-93-017-03-370    ETA      OJC        17-8EP-93   Job Corps Eligibility Requirements

12-93-018-03-380    ETA      SPPD       27-MAY-93   Research & Evaluation      Associates, Inc




                                                           87
                                      FINAL AUDIT REPORTS ISSUED
                                          01-APR-93 TO 30-SEP-93

                                         Date Sent
Audit                                    to Program
Report Number      Agency   Program      Agency     Name of Audit/Auditee

12-93-010-06-001   MSHA     ADMIN        23-SEP-93           MSHA Financial Schedules
12-93-020-06-001   MSHA     ADMIN        24-MAY-93           Termination Claim Closeout by Westinghouse                    Electric Corporation

12-93-008-07-001   OASAM    ADMIN        30-SEP-93           FY 92 Consolidated             Financial Statements

12-93-005-07-710   OASAM    COMP         30-SEP-93           FY 92 Working; Capital Fund Financial Statements

12-93-021-10-107   OSHA     TRNTA        18-MAY-93           Pre-award        Audit of Meridian Research, Inc

12-93-009-11-001   BLS      ADMIN        30-SEP-93           FY 92 BLS Financial Statements


12-93-019-98-599   OT AG    NO/DOL       04-MAY-93           DOL Child Development               Center Inc Fin. Struts & Auditor's      Rpt

17-93-009-01-010   OSEC     ASP          19-MAY-93           The Office of Administrative             Appeals

17-93-012-05-001   LMSA     ADMIN        25-AUG-93           Performance        Measures OLMS

17-93-010-07-001   OASAM    ADMIN        12-APR-93           FY 92 Evaluation Monitoring of Lobbying Activities
17-93-011-07-001   OASAM    ADMIN        17-SEP-93           Controls Over Advisory & Assistance Services

17-93-007-07-730   OASAM    DAPP         13-APR-93           Energy Management              and Conservation        Audit Survey

18-93-015-03-340   ETA      JTPA         30-APR-93           OICA, INC - Audit Resolution - II

18-93-019-03-355   ETA      DINAP        13-AU'G-93 Western Washington                      Indian Employment          & Training Program

18-93-020-03-360   ETA      DOWP         09-SEP-93       NationalIndian  Council on Aging
18-93-021-03-360   ETA      DOWP         09-sep-93       National Indian Council onAging

18-93-018-03-365   ETA      DSFP         18-JUN-93           Training Development             Corporation

18-93-012-03-370   ETA      OJC          09-SEP-93       International Masonry Institute
18-93-014-03-370   ETA      OJC          26-APR-93       NPIJA TF FY 90-91

18-93-011-07-735   OASAM    OPGM         09-SEP-93       International Masonry Institute
18-93-013-07-735   OASAM    OPGM         02-APR-93       TDC Indirect Cost Audit FY 91
18-93-016-07-735   OASAM    OPGM         28-JUL-93       National Governor's Association                    FY 89-90
18-93-017-07-735   OASAM    OPGM         28-JUL-93       National Governor's Association                    FY 91


19-93-005-10-001   OSHA     ADM1N        16-SEP-93       Property Management                 Inventory System




                                                                     88

                            3_" U.S. GOVERNMENT   PRINTING    OFFICE:1993--      3 0   1-    2 2 5/   9 4   3 9 8
You've Got OIG'_; Number

                              Call




                                  To Report
                    Fraud, Waste
                          or
                       Abuse.
202-219-5227/1-800-347-3756




  Federal Recycling Program   _       Printed on Recycled Paper
U.S. Department of Labor
Office of Inspector General
Washington, D.C. 20210

Official Business
Penalty for private use $300
P116




                               Copies of this report may be obtains_
                               from the U.S. Department of Labor,
                               Office of Inspector General,
                               Room S-5508
                               200 Constitution Ave., N.W.
                               Washington, D.C. 20210
